<html>
<title> - REPORT FROM THE FRONT LINE: THE STATUS OF NORTHEAST TEXAS' FIGHT AGAINST DRUGS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   REPORT FROM THE FRONT LINE: THE STATUS OF NORTHEAST TEXAS' FIGHT 
                             AGAINST DRUGS
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 1997

                               __________

                           Serial No. 105-83

                               __________

Printed for the use of the Committee on Government Reform and Oversight







                       U.S. GOVERNMENT PRINTING OFFICE
46-528                     WASHINGTON : 1998
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
              Sean Littlefield, Professional Staff Member
                Ianthe Saylor, Professional Staff Member















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 1997....................................     1
Statement of:
    Coggins, Paul E., U.S. attorney, northern district of Texas..    13
    Marshall, Donnie R., Chief of Operations, Drug Enforcement 
      Administration; and Julio F. Mercado, Special Agent in 
      Charge, Dallas Divisional Office, Drug Enforcement 
      Administration.............................................    42
    Yarbrough, Kenneth R., chief of police, city of Richardson, 
      TX.........................................................    74
Letters, statements, etc., submitted for the record by:
    Coggins, Paul E., U.S. attorney, northern district of Texas, 
      prepared statement of......................................    19
    Marshall, Donnie R., Chief of Operations, Drug Enforcement 
      Administration, prepared statement of......................    50
    Mercado, Julio F., Special Agent in Charge, Dallas Divisional 
      Office, Drug Enforcement Administration, prepared statement 
      of.........................................................    50
    Sessions, Hon. Pete, a Representative in Congress from the 
      State of Texas, prepared statement of......................    10
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Yarbrough, Kenneth R., chief of police, city of Richardson, 
      TX, prepared statement of..................................    77

















   REPORT FROM THE FRONT LINE: THE STATUS OF NORTHEAST TEXAS' FIGHT 
                             AGAINST DRUGS

                              ----------                              


                         MONDAY, JULY 21, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                      Mesquite, TX.
    The subcommittee met, pursuant to notice, at 10:48 a.m., at 
West Mesquite High School, Mesquite, TX, Hon. Mark Souder (vice 
chairman of the subcommittee) presiding.
    Present: Representatives Souder and Sessions.
    Staff present: Sean Littlefield and Ianthe Saylor, 
professional staff members; and Teresa Austin, full committee 
clerk.
    Mr. Souder. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order.
    Before we get underway, I want to say what an honor it is 
to be here in Mesquite as the guest of West Mesquite High 
School. We appreciate the hospitality. Many of our best 
hearings around the country have been in high schools and it 
gives us an opportunity to see what is going on in the schools 
and have a number of students--particularly during the school 
year--participate and observe how a congressional hearing 
works.
    Let me also say to the members of this community that you 
have one of the hardest working Members of Congress 
representing you in Washington, DC. I have been well aware of 
Pete Sessions' concerns about rising drug use in America and am 
very pleased that he is part of this important field hearing 
here today.
    I would especially like to thank Pete for helping us pass 
the Drug Free Communities Act of 1997. This bill, one that we 
had worked on for a number of years, establishes a program to 
support and encourage local communities in their efforts to 
reduce substance abuse among our youth. It will go a long way 
to bringing communities and resources together to keep drugs 
away from our children.
    With that said, I would now like to make a brief opening 
statement.
    Today, we will be examining the dire threat of drugs to our 
communities. It is a sad fact, but a harbinger of the times, 
that no young person in any community in America is out of the 
reach of cocaine, heroin, LSD and methamphetamine. Nor is any 
community immune from the drug violence, street gangs and 
trafficking to teens which accompany the arrival of these 
poisons in our midst.
    We have held hearings in New England, we have held hearings 
in Chicago, in the Detroit area and in Indiana. We have held 
hearings in the southwest and central and south Florida, in 
several parts of California, all over this Nation, and seen 
very similar types of problems with local variations. This 
problem is devastating and will require effort by all of us to 
reverse. We must do a better job of educating them about the 
dangers of these drugs, and protecting them from those who 
traffic in these poisons.
    We must wake up to our collective responsibility in meeting 
this collective threat--and get serious about fighting drugs. 
On behalf of the U.S. House leadership, this subcommittee began 
trying to pull together Republicans and Democrats committed to 
finding real and lasting solutions to our Nation's drug 
problems. During the time we have been involved in this effort, 
this subcommittee has traveled throughout our Nation to see how 
drug use is being combatted.
    We have also consciously looked for solutions in the places 
where these dangerous drugs are produced, including remote and 
dangerous places in South America. Both last year and this 
year, I, along with others from our subcommittee, traveled in 
Colombia and Peru, Bolivia, Panama and Mexico. We have learned 
a lot about the nature of the drug problem in America and 
abroad, but one item stands out. Every aspect of the drug war 
is interconnected--one aspect hooks it together like a chain 
link fence, and we have to attack every link in that fence. The 
success or failure of our policies in any specific area 
drastically affects the success or failure of our policies in 
all areas, whether it is treatment, prevention or law 
enforcement.
    Today, I am pleased to say, Washington is waking up to the 
problem. Our subcommittee has worked hard in the past year to 
change Washington's thinking on this issue, and I think we are 
succeeding. We are rededicating ourselves to fighting drugs on 
all fronts as this Nation once did during the heyday of the 
Reagan administration's ``War on Drugs'' and ``Just Say No'' 
campaigns.
    Today, I think we will learn about the threat drugs pose, 
and I hope this wisdom can be used in Washington. We must take 
this knowledge and build new partnerships between governments, 
businesses, schools, churches and families to fight drugs. We 
must reinforce efforts that are working, and learn how to 
translate local successes into national victories.
    If we fail in our efforts to destroy drugs where they are 
produced in South America, more drugs reach our streets. If we 
fail to interdict those drugs in transit through the Caribbean, 
along our Southwest Border with Mexico, or on our northern 
border along the Great Lakes, more drugs reach our streets. If 
we fail to coordinate the efforts of law enforcement personnel 
at the Federal, State and local level, more drugs reach our 
streets, schools and kids. If we do not educate our kids to say 
no to drugs and no to gangs, the market for drugs on our 
streets grows, as does the number of those willing to sell 
drugs. If we fail to effectively treat those who are on drugs 
and need our help, they will continue their destructive cycle 
of drug use, despair, crime and demoralization. It is all one 
big picture and we cannot make the mistake of ignoring or 
neglecting any part of this puzzle, as we have so often done in 
the past. We must fight on all fronts and we must fight to win.
    I would now like to recognize Congressman Sessions for his 
opening statement.
    [The prepared statement of Hon. Mark E. Souder follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Sessions. Mr. Chairman, thank you so much, and on 
behalf of all people from the Fifth District of Texas, I 
welcome you to Texas and want to thank you not only for being 
here today, but for your fight against drugs.
    I would like to have an opening statement if I could, Mr. 
Chairman.
    First of all, what I would like to do is once again thank 
you for your participation and your trip down here to Mesquite, 
TX and the metropolitan area of Dallas. I can tell you in my 
short time of being in Congress, I have admired the tireless 
work that this subcommittee does across not only the United 
States but the globe in its fight against illegal drugs. It is 
an area of government and law enforcement that gets beaten up a 
great deal, but they deserve not only our support but also our 
continued encouragement, and I think they deserve a strong 
thank you, not only from Congress, but from each one of us.
    So what today is all about is an opportunity for us to be 
together, to hear where we are currently on fighting drugs, not 
only in Texas and north Texas but also in the United States 
today, with an opportunity to say thank you to law enforcement. 
Also, for us to take back the message that is heard today to 
Washington that will result in not only better laws, but also 
the opportunity for us to effectively give you the resources 
that are necessary.
    The importance of this is that drugs are rampant in our 
country; they are everywhere. They are rampant in north Texas. 
Cocaine availability is up, marijuana use is widespread. Heroin 
use, incredibly, is on the rise throughout this country, and 
methamphetamine made right here in north Texas, Oklahoma and 
Missouri are readily available in this area.
    Today, we are going to hear from those heroes in the fight 
against this onslaught. Those who will testify before this 
subcommittee are those who I consider to be among the best in 
the country in the war on drugs. They have the expertise and 
the resources to push back the continuous flow of illegal 
narcotics into this and every community in this country. What 
they also have is the conviction and the will. I think that 
what you will find out as you hear this testimony today is that 
these are men and women who have been involved in law 
enforcement throughout their lives and they are here to protect 
our citizens from the insidious effects of drugs.
    The first witness that we will hear from is my good friend, 
Paul Coggins. Mr. Coggins is the U.S. attorney for the northern 
district of Texas and he has done yeoman's work in keeping drug 
dealers behind bars and also working with communities in areas 
to fight and combat drugs and drug addiction. Also, we will 
have before us today officials from the Drug Enforcement 
Administration known as the DEA. The DEA is one of our Federal 
Government's most successful agencies. And I want to make sure 
that everybody knows that I consider this a compliment. 
Sometimes when we talk about government, it is not in the best 
of terms, but I can tell you that the DEA is a friend of not 
only the taxpayer but also parents and law-abiding citizens of 
our country.
    The folks at DEA are everywhere in the fight against 
narcotics and they have assured me that they are ready to fight 
with every city and every community that asks for help, not 
only in the State of Texas, but across this country. That level 
of commitment is going to be shown, as you will see, today by 
Donnie R. Marshall, the current Chief of Operations at the DEA. 
And he is just an incredible man. He has a law enforcement 
career that began in 1969 as Special Agent in Dallas with the 
Bureau of Narcotics and Dangerous Drugs, which was the 
predecessor for the DEA. Please know, Mr. Marshall, that we are 
delighted that you are here today and please accept from us the 
gratitude of people not only of the United States but also in 
this metropolitan area of Dallas.
    I am also looking forward to the expertise that will be 
shared with us from Julio Mercado, Special Agent in Charge of 
the Dallas Field Division of the DEA. Agent Mercado can give us 
his unique perspective on both drug trafficking through Texas 
and the Caribbean, as well as drug prevention efforts, which I 
understand that the DEA will become more involved in as we work 
to sustain efforts to keep drugs off of our street and out of 
our children's hands.
    Finally, this subcommittee will have the honor of hearing 
from another one of my good friends and a person who I have 
admired for many years, the Chief of Police from Richardson, 
Ken Yarbrough. Chief Yarbrough's expertise is extensive as it 
relates to fighting drugs and crime, and I am looking forward 
to listening, as I have done for many years, to Chief Yarbrough 
and how he has an insightful perspective on the effects of 
drugs, drug traffickers and also the effect on local 
communities.
    The purpose of this hearing, as Chairman Souder has said, 
is to describe the focus of this work on the committee and of 
course, it is, to me, an opportunity for me to hear first-hand 
from law enforcement officials about the problem, the fight and 
the solutions that they see that we need.
    I think you will agree that with Congressman Souder being 
here, there is no question that we can take back the very best 
that could be offered in America, the problems that we face 
here in north Texas and will result in positive things in 
Washington, DC.
    I hope that we will also recognize that this is a complex 
problem, this is not one that will be solved overnight. It is 
going to take not only diligence on the part of the DEA, the 
U.S. attorney and local law enforcement, but it is also going 
to take those people like us, Congressman Souder and myself, to 
understand how complex the problem is.
    I would like to say that these local initiatives that have 
been undertaken here are innovative. They deal with the guts of 
the problem because law enforcement is out working with people 
in the community to try and resolve these problems. One example 
is that the DEA has formed a partnership with Wal-Mart. They 
have gone to Wal-Mart to try and prevent the selling of illegal 
over-the-counter products, such as--and I am going to have to 
stumble through these words, they are not as easy to pronounce 
as some might assume--but Pseudoephedrine and 
Phenylpropanolamine--got through that. I am sure that Agent 
Mercado could correct me very carefully because you deal with 
those words every day, but essentially these are products that 
are used in the manufacture of methamphetamine and 
amphetamines. These are products that are very dangerous, they 
are dangerous not just in their substance and how they are 
handled, but they are dangerous in how they are used.
    I think that what we are going to learn today is that not 
only are these products available, but how we deal with them 
and how we go about changing the law and giving law enforcement 
those effective resources that they need.
    So why are we here? Why are the children that are before 
us, these students here? They are here because we have asked 
them to be here and I want to thank each and every one of them, 
because I think that they should come to recognize and know 
that there are people who are adults and who are elected 
officials and who work for our government that care very deeply 
about their success. I want them to know that they should have 
the faith in our commitment to rid our country of drugs and to 
make sure that when they are parents, they do not have to go 
through the problems of worrying about what their kids are 
doing and the availability of drugs on our streets.
    Last, Mr. Chairman, what I would like to do is that I would 
like to announce that I am going to be going back to 
Washington, DC, and will be introducing a bill. And what this 
bill is to do is to talk about how we need to deal more 
effectively with the problems of methamphetamine. Little did I 
know that today there was an article that was in the Austin 
American Statesman, and what this article talks about is it 
says, ``Missouri becomes a methamphetamine capital.'' Now this 
is in a paper that is in Austin, TX. But those are the same 
headlines that we have had in Dallas, TX and across north Texas 
for many years, because we have been the focus of not only 
organized drug rings, but also what we call mom and pop shops, 
people who set up drug or methamphetamine houses.
    What we are going to do in this effort that I am announcing 
is that we are going to say that anyone who is involved in the 
manufacture, distribution and sale of methamphetamine would be 
given life in prison without parole. Now many of you may think 
that that is rather stiff, a stiff sentence. But I think that 
if you look at, in the scheme of things, the drug problem that 
we as parents and as Congressmen, as your legislators, are 
looking at, we recognize that in 1994, there were over 700 
methamphetamine related deaths in the United States--700 
deaths. What we are dealing with is a product that is unsafe 
for any person, especially children.
    So what I am trying to do is to send a strong message that 
will be given to every single drug thug that is in this 
country. The merchants of death will not be able to hide from 
the DEA and law enforcement. When a person is arrested who is 
involved in methamphetamine, it will be the one time that law 
enforcement comes into contact with them. They will be held 
accountable in our judicial system and they will be put away 
for life.
    Many times in Washington, Congressman Souder and I sit 
through debates where we talk about other countries and how 
they deal with drugs. Well, we know what we are talking about 
is our drug problem here in the United States. So many times we 
do not understand why Colombia and Mexico do not effectively 
deal with the distribution, sale and manufacturing of drugs in 
their country. I think it is high time that we here in the 
United States recognize it is our problem too.
    I believe this legislation is not only very timely, but I 
feel like it will be effective and I feel like it is 
reasonable. I hope as we hear throughout the hearings today 
from testimony that will be given by professionals in law 
enforcement, you will see that Washington, DC, and in 
particular your Representative is not only hearing what is 
said, but I get it. What I get is that it is our children and 
our citizens that are at risk from these merchants of death and 
we are going to do something very effectively about that.
    Thank you so much, Mr. Souder. That is the end of my 
opening statement.
    [The prepared statement of Hon. Pete Sessions follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. I want to congratulate Congressman Sessions on 
his effort because one of the things that in fact is going to 
happen if we are successful in interdicting these drugs and 
eradicating the drugs in a lot of the source countries, what we 
indeed will face is methamphetamine in our own Nation. We 
already see this in a lot of our national forests and national 
parks, in any place there is open spaces like in north Texas 
and in Oklahoma, the Ozark area in Missouri, you're going to 
see huge meth labs in addition to the mom and pop's. So I think 
your bill is very timely.
    At this time, I would like to reintroduce our first guest 
and our sole guest on our first panel. Paul Coggins is the U.S. 
attorney for the northern district of Texas, he has been in his 
current position since 1993. Prior to that, he served as 
special assistant to the State of Texas attorney general. He 
also serves or has served previously on the mayor's Task Force 
on Criminal Justice, the Coalition for a Safer Dallas, and 
Attorney General Janet Reno's advisory committee.
    In accordance with House rules, we must swear you in 
because this is an oversight committee. If you will stand and 
raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness answered 
in the affirmative. Mr. Coggins, it is an honor to have you 
here and please proceed with your opening statement.

STATEMENT OF PAUL E. COGGINS, U.S. ATTORNEY, NORTHERN DISTRICT 
                            OF TEXAS

    Mr. Coggins. Before I do, I would like to thank you, Mr. 
Chairman, for coming to Dallas. I knew Congressman Sessions had 
great gifts of persuasion, but to persuade you to come to 
Dallas in July, he is even more silver-tongued than I thought 
he was. But we will hope to get you out of here without getting 
too hot.
    I do have a statement I would like to read. I will skip 
over the cases that I put in the written statement, except I 
think in light of Congressman Session's opening statement, I 
might like to touch on a few of the meth cases that have been 
made in the northern district of Texas, to show you what a 
danger this meth can be and how devastating the consequences of 
meth can be.
    Mr. Souder. And if I may say, with unanimous consent, we 
will insert your whole written statement in the record and if 
you or any other witness has other materials, if you can get 
that to our committee, we will insert that as well.
    Mr. Coggins. Thank you.
    I would also like to point out that Rose Romero, who heads 
our Narcotics Task Force in the U.S. attorney's office planned 
to be here. She was taken ill with food poisoning last night 
and called this morning and apologizes, and I apologize on 
behalf of Ms. Romero. She would liked to have been here.
    With that, I will read the statement.
    Mr. Chairman, members of the subcommittee, I appreciate the 
opportunity to appear before you today to address drug 
trafficking prosecutions in the northern district of Texas. As 
the U.S. attorney for the northern district of Texas, I will 
address the northern district's role in the enforcement of 
Federal laws in drug trafficking and related cases.
    As you know, the President's National Drug Control Strategy 
outlines a collective American effort to achieve the common 
purpose of reducing illegal drug use and its consequences in 
America. The law enforcement community in the northern district 
of Texas is committed to this effort and has worked 
aggressively to that end.
    As part of the northern district of Texas, the Dallas/Forth 
Worth Metroplex ranks among the largest metropolitan areas in 
the Nation. During the past decade, the Metroplex has become a 
primary center for international commerce, telecommunications, 
high technology and finance. Due to its physical location, 
rapid growth and second busiest international airport in the 
world, Dallas/Fort Worth is one of the top ranking 
transportation hubs in the United States.
    These characteristics have served as a magnet to today's 
most prominent international drug trafficking cartels. Since 
the Dallas/Fort Worth Metroplex is a nexus to the border, the 
Mexican polydrug trafficking groups have always maintained a 
presence here. With their rise to prominence and their attempt 
to avoid enforcement efforts targeting the Southwest Border, 
however, the cartels are increasingly using the Dallas/Fort 
Worth Metroplex as a strategic transshipment center for 
distribution of illegal narcotics throughout the United States. 
A recent DEA investigation suggested the presence of several 
drug cartel command and control elements located in Dallas/Fort 
Worth. In addition, the Metroplex has emerged as a significant 
point of distribution, with large quantities of narcotics being 
distributed locally before transshipment to other parts of the 
United States.
    Since the mid-1980's, Federal, State and local agencies 
have in the area consistently pooled resources through the 
Organized Crime Drug Enforcement Task Force--OCDETF in short--
to address the increasing international and local drug 
trafficking threat in the Dallas/Fort Worth Metroplex. And I 
would like to point out that OCDETF was begun under a 
Republican administration, it was continued under a Democratic 
administration. It has been perhaps the finest bipartisan 
effort in law enforcement that I am familiar with.
    Federal agencies on our OCDETF team include the Drug 
Enforcement Administration, the Federal Bureau of 
Investigation, the Internal Revenue Service, the Immigration 
and Naturalization Service, the U.S. Customs Service, the 
Bureau of Alcohol, Tobacco and Firearms and the U.S. Postal 
Inspection Service. The above agencies work closely with local 
police departments and district attorneys' offices. In the 
northern district of Texas, Federal drug prosecutions are 
supervised by Deputy Criminal Chief Rose Romero and lead OCDETF 
attorney, St. Clair Theodore, both of the U.S. attorney's 
office.
    Interagency cooperation has been fundamental to the many 
successful investigations and prosecutions of major drug 
trafficking organizations operating in the northern district, 
and it is the key to future success. The goal of the OCDETF 
program is to identify, investigate and prosecute members of 
high level drug trafficking and related enterprises and to 
dismantle the operations of those organizations by: No. 1, 
supplementing Federal resources for the investigation and 
prosecution of major drug trafficking and related 
organizations; No. 2, fostering improved interagency 
coordination and cooperation in the investigation and 
prosecution of major drug trafficking and related cases; and, 
No. 3, working fully and effectively with State and local drug 
enforcement agencies.
    Pursuing this goal has resulted in numerous cases against 
high-level drug traffickers, which in turn has had an 
appreciable impact on illegal drug trafficking.
    The OCDETF program is recognized throughout the country, 
and certainly in the northern district, as the successful model 
for Federal, State and local participation in significant 
narcotics and narcotics-related investigations and 
prosecutions. Such investigations are often complex and require 
a significant amount of resources and personnel. Many of the 
investigations use highly technical and complicated 
investigative tools, such as wiretaps. As a result, only the 
most experienced and seasoned trial attorneys are assigned to 
the OCDETF cases. Another significant aspect of the OCDETF 
concept is that attorneys are assigned to work with 
investigative agents at the earliest stages of the 
investigations. This ensures that sufficient admissible 
evidence is gathered to obtain the convictions of each and 
every identified member of large scale drug trafficking 
organizations. As a result of such teamwork, agents and 
attorneys working on OCDETF cases establish levels of trust and 
communications that carry beyond individual cases and enhance 
future working relationships.
    Another effective tool we use against high level drug 
traffickers is the money laundering statutes. The sums of U.S. 
currency connected to trafficking organizations is staggering. 
The Criminal Investigations Division of the Internal Revenue 
Service has played and continues to play a significant role in 
the prosecution of recent high-level, high-profile cases. For 
example, where the money trail led to the identification and 
ultimate conviction of several prolific marijuana traffickers.
    It is the philosophy of this district to attack drug 
trafficking organizations on all fronts. Therefore, the 
northern district is very active in the forfeiture of drug 
proceeds and the forfeiture of assets used by drug traffickers 
to further and facilitate drug trafficking crimes. Forfeitures 
are instrumental in combating the drug trafficking problem in 
that such forfeitures inhibit the ability of drug traffickers 
to continue their illegal activities.
    One of the most disturbing trends in the drug trafficking 
organizations that we have encountered recently is the 
increasing number of young individuals employed by highly 
sophisticated drug organizations. This is especially true in 
crack cocaine organizations. Current prosecutions involve 
several defendants between the ages of 20 and 25 and the drug 
organizations are recruiting teenagers. These young people 
undertake a variety of drug trafficking duties, including 
acting as managers and organizers for the drug trafficking 
organizations. The law enforcement community reports that 
younger drug traffickers are much more aggressive and violent 
in their trafficking activities.
    In order to continue effectively to investigate, prosecute 
and dismantle the drug organizations in our area, it is 
imperative that we continue the cooperative effort fostered by 
the OCDETF program. As a Federal/State/local partnership, 
OCDETF is beneficial to all. State and local resources, 
expertise and intelligence are considered invaluable to Federal 
drug investigations, especially in geographic areas where 
Federal resources are limited. Because OCDETF allows State and 
local officers to be deputized, these officers are empowered to 
participate as full partners with Federal agents and to pursue 
Title XXI violations across jurisdictional lines. In addition 
to law enforcement personnel, involvement of State prosecutors 
is also beneficial where State laws and local ordinances offer 
broader latitude.
    Since 1994, the Dallas Field Division of the Drug 
Enforcement Administration has seen a tremendous increase in 
the quantities of methamphetamine available for distribution on 
the streets of Dallas/Fort Worth. The DEA estimates an 
approximate 150 percent increase in the number of 
methamphetamine-related case initiations from 1994 to 1995--
that is a 150 percent increase. The vast majority of these 
cases involved either methamphetamine or amphetamines. Much of 
the methamphetamine encountered in the Dallas-Fort Worth area 
is transported from California, Arizona and Mexico. Recent 
intelligence attributes the increased trafficking of 
methamphetamine throughout the Southwest to the activities of 
international drug cartels. Identifying the command and control 
structures of these international drug trafficking 
organizations, targeting them effectively and dismantling them 
is a priority of drug enforcement agencies in the northern 
district of Texas. Such efforts are conducted jointly by 
Federal, State and local law enforcement agencies.
    The availability and price of cocaine remains stable 
throughout the northern district of Texas. Cocaine is readily 
available and is widely used in all populations and social 
groups with no indication of decline in availability or 
popularity. Drug enforcement agencies in the northern district 
of Texas are aggressively pursuing structured and highly 
sophisticated cocaine trafficking organizations. As illustrated 
in the case summaries below, the drug enforcement community in 
this District has successfully disrupted and dismantled several 
trafficking organizations that had become deeply entrenched 
throughout the northern district. However, the drug trafficking 
business is highly lucrative and quickly recruits replacements.
    Heroin availability in the northern district of Texas is on 
the rise. Quality is increasing and recent intelligence 
indicates that the Mexican border continues to increase in 
importance as a conduit into the United States. Over the last 
several years, law enforcement personnel involved in heroin 
enforcement activities have found that family based heroin 
trafficking organizations are using generations of intimate 
knowledge of the Texas/Mexican border to evade detection and 
interdiction. Mexican heroin, however, is not the only threat. 
As shown in the case summary below, importers of southeast Asia 
heroin are aggressively making in-roads in domestic markets. 
Smuggling and distribution are being directed by Nigerian and 
Vietnamese organizations. This heroin is often flown from 
Bangkok and Hong Kong to Mexico, where couriers bring it across 
the United States border. Once inside Texas, it is transshipped 
to East and West Coast cities, especially New York and Los 
Angeles.
    Crack cocaine is still a significant problem throughout the 
northern district from urban and rural areas. Drug enforcement 
investigations reveal that crack cocaine distribution 
organizations are highly sophisticated and organized. The 
market for crack has spread from the original lower income and 
primarily African-American users to include mid and higher 
income users and all ethic classes.
    Marijuana continues to be the most rampant drug in the 
northern district of Texas. Multi-pound to multi-ton seizures 
of marijuana continue to be commonplace. Tractor-trailers and 
privately owned automobiles continue to be the smuggling means 
of preference. Marijuana distribution organizations have become 
more complex and sophisticated. Groups often move marijuana 
through Dallas and store it in several stash houses before it 
is repackaged for further distribution to Ohio, Oklahoma, 
Florida, Michigan and other Northern States.
    I have set out a number of recent case summaries which will 
be added to the record, but I would like to, in those case 
summaries, given the focus on methamphetamine, to focus you on 
page 12 to a number--this is representative of the type of 
cases we are seeing in methamphetamine. The case involving 
United States v. Willis Bradford Allen, et al.
    On June 25, 1996, after a 3-year investigation by the 
Dallas office of the DEA, assisted by the Garland Police 
Department and other local law enforcement agencies, 23 
defendants were indicted in connection with the Willis Allen 
organization. The investigation spanned 3 years, beginning in 
1994, during which time the organization distributed from 5 to 
10 pounds of methamphetamine in Texas, Oklahoma and Louisiana 
per week for a period of 2 years. Eighteen defendants have pled 
guilty, three are fugitives and two defendants are pending 
trial. Although no defendants have been sentenced today, the 
guideline range for the conspiracy count alone is 21 to 27 
years. In addition to drugs and drug paraphernalia, numerous 
guns were seized from this organization.
    On September 25, 1996, John Groves was indicted following 
an investigation by the Dallas office of the DEA, which 
responded to a request for assistance from the Irving Police 
Department. Groves was the cook and property owner of a 
methamphetamine lab in Irving. His property and specifically 
the structure housing the lab, was immediately adjacent to the 
playground lot at Stephen F. Austin Junior High School. Groves 
pled guilty and is awaiting sentencing. The contents were so 
volatile in the cooking area of the lab that it was necessary 
to ventilate the area for hours before safely entering. Masks 
were worn by Groves in order to work in the lab.
    On September 25, 1996, 12 members of the Campos 
organization were indicted. The organization operated out of 
California, Dallas and Alabama. During the 3-year DEA 
investigation, beginning in 1993, approximately 400 pounds of 
methamphetamine were seized. The leader of the organization was 
sentenced to 29 years, four sentences averaged from 4 to 8 
years and the remaining defendants are awaiting sentencing.
    Those represent some of the kind of methamphetamine 
activity and cases and investigations we are seeing in the 
northern district of Texas. I would, however, like to point out 
one other case of note, because it is a heroin case. And I 
think it gives you an idea of the level of heroin importation 
we are seeing in the northern district at this time, and it is 
on page 15.
    United States versus Hamid Reza Sayadi--I am going to get 
you to pronounce that for me, Congressman Sessions--Takhtehkar.
    On April 11, 1997, Aziz Ghanbari of Istanbul, Turkey, was 
sentenced to life imprisonment in connection with his role in 
an international drug smuggling venture, which resulted in the 
importation of 98 kilograms of heroin in the United States at 
Lubbock, TX. Evidence at trial showed that the conspirators 
negotiated with undercover San Francisco DEA agents to 
transport large shipping containers to Romania, where the 
conspirators, in turn, would fill each shipping container with 
from 500 kilograms to a ton and a half of heroin base. This 
seizure is believed to be the largest domestic seizure of 
southwest Asian heroin in the history of the United States and 
the sixth largest domestic seizure of any type of heroin in the 
United States. Hamid Reza Sayadi-Takhtehkar of Vienna, Austria 
was also convicted and sentenced to 30 years imprisonment. Two 
additional defendants, Hakki Aksoy of Istanbul, Turkey and 
Sezgin Yildizhan of the Netherlands, were also convinced and 
received substantial prison sentences.
    In sum, between 1995 and the present, the Dallas Field 
Office of the DEA, working jointly with other law enforcement 
agencies, has conducted investigations that have led to 
arrests, indictments and convictions of more than 345 members 
of major drug organizations responsible for trafficking in over 
129,000 pounds of marijuana, 4,375 kilograms of cocaine, 5,235 
kilograms of crack, 700 kilograms of heroin, 1,100 pounds of 
methamphetamine and 50 gallons of PCP.
    In conclusion, I want to thank you for the opportunity to 
appear at today's hearing and for your support to law 
enforcement agencies in bringing to justice drug organizations. 
We recognize that enforcement of drug laws, though important, 
is not the sole answer to the plague of illegal drugs. We must 
explore ways to combine strong enforcement with equally strong 
strategies for prevention, demand reduction and treatment.
    Thank you for your time and your interest in this important 
issue.
    [The prepared statement of Mr. Coggins follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. Thank you very much. I yield to Congressman 
Sessions.
    Mr. Sessions. Thank you very much, Mr. Chairman.
    Mr. Coggins, I think you have exhibited today why you were 
talked about in Washington by not only our President, President 
Clinton, but also our Attorney General Janet Reno, as one of 
the bright young faces in law enforcement, and certainly as one 
of the finest U.S. attorneys in America. Thank you for your 
compelling testimony.
    I would like to, if I could, please direct some of my 
questions to you. You briefly spoke about the Dallas/Fort Worth 
area as being a hub of international trafficking. And in that 
testimony, you alluded to DFW--what we know as DFW Airport. I 
also know that there are some other airports that are around, I 
also know that much of this is proprietary to your business, 
but could you briefly discuss where it is coming from, how it 
is coming in here, the role of DFW in this international drug 
trafficking?
    Mr. Coggins. Well, DFW, obviously--I guess you start with 
this, Congressman, and that is, wherever you have a large 
amount of legitimate trade, you have a danger of illegitimate 
trade trying to piggyback on that legitimate trade. Huge 
amounts of legitimate trade pass through DFW and the other 
airports. The DEA established a task force out at DFW Airport, 
which was a model for the task forces, and we were getting 
tremendous seizures of drugs. That task force has been so 
successful in many instances that we found many of the cartels 
were steering clear of the DFW Airport because the heat was so 
great.
    But it is like any other area--and they were bringing it up 
through other airports or, as I mentioned in some of this 
testimony, oftentimes in trucks. For example, a lot of the 
marijuana comes up in large trucks, comes up across the Mexican 
border in trucks.
    Drug enforcement is cyclical and we know that, we know we 
cannot let down our guard at any of the airports, because as 
soon as we do that, the word will go out that they can come 
back through the airports and what we will see is they will 
start testing it again. So I anticipate that we are going to 
always have this problem wherever we have huge amounts of 
legitimate trade, and that is, we are going to have 
illegitimate trade trying to sneak in at the same time the 
legitimate trade is coming through, whether it is by planes in 
airports, by trucks--we had a Nigerian ring in which women were 
used to body carry heroin into this country. So they are 
willing--the drug traffickers have proven they are willing to 
risk anybody's life, anybody's health, anybody's safety because 
of the amount of money that is available in this. And Dallas, 
because it is close to the border, because it has a tremendous 
airport and because it has got access to both coasts, which is 
attractive to legitimate business, makes it equally attractive 
to illegitimate business. And we have got to keep our DFW Task 
Force honed, ready to go. We have got to do the same thing at 
the other major airports in the area as well.
    Mr. Sessions. I hear you suggesting rather clearly that 
because of the size of DFW Airport, because of the amount of 
cargo and traffic and passengers that comes through there, that 
this is the distribution channel obviously for these drug thugs 
and what they are doing is putting people through and you are 
simply having to take a lot of your time and resources to check 
all of these people.
    Mr. Coggins. Right.
    Mr. Sessions. Where else is it popping up? Is it probably 
somewhere else, and because you are having to concentrate your 
efforts here, are they using other distribution channels?
    Mr. Coggins. Oh, absolutely. You saw it from the case. The 
northern district of Texas is a huge district, and one of the 
points that the chairman made I think that is absolutely true, 
and that is that there is no drug that comes across the border 
that does not affect all of us in the area, and what happens is 
as more and more pressure is put on the border, they find 
alternate ways to try to get in. The 98 pounds of heroin that 
came into Lubbock, TX is a huge seizure of southwest Asian 
heroin and I think that was a response to the pressure put on 
the border, trying to find an alternate route into this 
country. Pressure put in DFW, they are going to try to get in 
through Lubbock or they are going to try to get in through some 
other airport out there. So it is a little bit like squeezing 
the balloon and that just shows you that we have to have multi-
district cooperation. It is not a problem that can be addressed 
by any district by itself no matter how hard we work.
    One of the things I am excited about, Congressman, as you 
know, a lot of my testimony was about the OCDETF concept. I 
think the OCDETF concept is an outstanding concept because it 
leads to not only cooperation within the northern district of 
Texas, but also cooperation between the northern district of 
Texas and the southern district of Texas and the western 
district, New Mexico, Arizona and California. We are attempting 
to streamline the OCDETF program now and one of the areas that 
is going to be concentrated on is the Southwest Border, broadly 
construed to include Dallas/Fort Worth. So we are going to be 
linked up with Los Angeles, San Diego, Albuquerque, Phoenix, 
Houston, San Antonio and Dallas/Fort Worth will all be linked 
in one OCDETF region. We are going to have more access to their 
information, we are going to share information, we are going to 
share techniques, we are going to make it so hot on these drug 
organizations that they know they cannot, if things get too hot 
in the northern district of Texas, try to sneak through another 
district.
    Mr. Sessions. Interesting. So in other words, you would 
consider this creative process that you have established one 
that you would like to see broadened----
    Mr. Coggins. Absolutely.
    Mr. Sessions [continuing]. And become--and probably the 
area you described would be linear, that it would go across the 
States of Texas, all across Texas, New Mexico, Arizona, all the 
way to California, to encompass our border.
    Mr. Coggins. Obviously, we have to share and we have to 
work with our colleagues in Oklahoma and States north as well, 
because there is a corridor straight up from the border, 
straight through Dallas/Fort Worth up to Oklahoma and States 
north too, for distribution. So what you find in Dallas is 
Dallas is just a very convenient place for people to transship 
goods and that is true for the drug organizations as well as 
anybody else, whether they are shipping them north, east or 
west, Dallas has become a major hub.
    Mr. Sessions. My last question to you, Mr. Coggins, is 
could you please discuss with me--we have seen drugs around 
since--I am 42, you are probably about that same age, when I 
was in high school in the early 1970's, drugs were available. 
We do not seem to have put the stop to these.
    Please talk to me a minute about how these drugs are aimed 
at children and how destructive they are, if you could.
    Mr. Coggins. Well, one of the things I touched upon is not 
just--drugs have always been aimed at children. They are always 
aimed at the most vulnerable people in society they can aim 
these at. Children have always been a primary target, and that 
is one of the reasons you see, for instance, people setting up 
near playgrounds, people hoping to induce the youngest and most 
vulnerable people in our society to get off on the wrong track, 
to throw their lives away because oftentimes children do not 
have that long view. As far as they are concerned, you know, 
the future is next week, if you go that far. Drugs prey upon 
that kind of attitude.
    I think perhaps the most shocking thing that I have seen--
because I was an assistant U.S. attorney in the early 1980's 
and we prosecuted drug crimes and I was in court a lot more 
then prosecuting the cases. We saw a certain level of defendant 
and, you know, our defendants were in their 20's or 30's. What 
is shocking now is that not only are drugs aimed at kids now, 
but kids are selling drugs to kids. The drug organizations, in 
their effort to evade punishment, are trying to recruit kids to 
push those drugs. So it is not uncommon for us now to have a 
cooperating individual sitting up in the stand on a trial 
describing the drug organization, describing who were the 
lookouts, who were the distributors, how much the drugs cost 
and that witness may be 15 years old. You have a kid selling 
drugs to kids. It has deteriorated that far and we have younger 
and younger defendants coming through the system getting their 
lives off track, and of course, a huge amount of deaths. One of 
the things I did not touch on here, we are talking about drug 
crimes here, but a lot of these drug organizations are directly 
responsible for homicides, dozens of homicides can often be 
laid at the feet of these drug organizations. They are willing 
to kill to protect the money they make. They are willing to 
kill our kids, they are willing to kill someone who gets in 
their way.
    One of the things I think you are going to see and you have 
seen already is how united the communities are behind getting 
these drug dealers out, because nobody, nobody suffers from the 
drug trade as much as a parent who is trying to raise a kid in 
perhaps public housing or public assisted housing, who has a 
drug gang take over that public housing, and no matter how hard 
those parents work, they know that for every 1 of them, there 
are 10 dealers hanging outside that complex trying to sell 
drugs to their kids and saying hey, I am the most successful 
guy you see because I have got the biggest car and the 
flashiest watch and all the rest of it.
    We literally have neighbors applauding the police 
departments, applauding the DEA for cracking down on these drug 
organizations, and moving them away from their kids.
    Mr. Sessions. Thank you, sir. Mr. Chairman, I am through 
with my questions.
    Mr. Souder. Thank you. I actually have what appears to be a 
minor victory in here I wanted to ask about. You said the 
availability and price of cocaine remains stable. In other 
words, you have not had an increase--what period of time is 
that?
    Mr. Coggins. That is probably the last couple of years.
    Mr. Souder. Is the price down from where it was----
    Mr. Coggins. You probably need to check with the DEA, they 
keep the street prices for us.
    Mr. Souder. In most of the country, we have had an increase 
in supply and decrease in price.
    Mr. Coggins. Right. There has been some decrease in price 
of drugs over time, but this is fairly short term.
    Mr. Souder. But to some degree, the more you interdict and 
the more pressure you put on, one of the things which has 
happened in Peru, which is one of these good news/bad news 
stories, is that the good news is that as we have put the 
pressure on there, increasingly now farmers are actually coming 
to United States aid and U.N. forces, U.N. representatives, and 
saying what else can we plant, because they are not paying us 
enough. Because we forced them down at that level.
    Mr. Coggins. Uh-huh.
    Mr. Souder. As we up the interdiction price, also however, 
we are seeing larger domestic consumption in those countries 
because they cannot get as much out.
    I noticed one other--you had a case on page 13, you had 
nine defendants in the Diana Monsalve organization. What I 
thought was unusual about that, you do not usually see a female 
head. Is that something that you are seeing more of? You see 
females who are used by the Nigerians as transporters 
occasionally.
    Mr. Coggins. That was probably not the head of that 
organization, it was probably the highest person we caught in 
that organization. So that would be rare to see--in fact, I was 
thinking back, I don't remember a female actually being the top 
person in any of the drug organizations we indicted. I think we 
might have had some fugitives there and that is probably the 
highest level one we were able to apprehend.
    Mr. Souder. I think your heroin case, for anybody that does 
not think it is important that the agencies coordinate like you 
described you are doing so well down here, I mean you have 
got--you start with a guy from Turkey with shipping containers 
from Romania of southeast Asian heroin. You also convicted a 
man from Vienna, Austria and from the Netherlands.
    Mr. Coggins. I can say this, the German Government was 
chasing the same people that we were chasing, and the case--it 
turned into cooperation. The case could have been prosecuted in 
Lubbock, TX, in San Francisco, CA or possibly New York City, 
and it was decided that Lubbock had probably the best evidence 
to go on, so we went in Lubbock. We were happy to do it, but it 
requires sitting down and deciding--and the German Government 
wanted a piece of them too, but it was decided Lubbock had the 
best case. We were proud to have done that case, it was a major 
type case. I would also like to commend the DEA in Dallas, 
because they were the first folks, the Dallas Division of the 
DEA, to get Abrego Garcia indicted and Carillo-Fuentes indicted 
as well, they were indicted first in Dallas, then indicted in 
other places, and once they have two or three indictments 
against them, it is down to law enforcement deciding where the 
case can best be brought. So they have made big level cases, 
but most of these cases are not of that grandiose a scheme, but 
they are important cases because they are organizations. And as 
you will notice, we will have 25, we will have--we had a recent 
case that had 38 defendants.
    We can do that in Federal court more easily than you can do 
it in State court. In fact, you really cannot do it in State 
court, it is not practical in Texas, so we are able to bring a 
case against 38 defendants. Now, we are obviously hoping not 
all 38 go to trial against us, we are looking at getting plea 
bargains from a substantial number of them, but we are 
aggressive. It does not do us any good to take one out, we are 
trying to take out the whole organization, if we can, from top 
to bottom. And then we will work with the State and the State 
will take some of those cases as well when we have an 
organization.
    One thing I did not point out here that I would like to 
commend, and that is that in Dallas/Fort Worth, our major 
metropolitan areas, we get a certain view of what a big case is 
in Dallas. A big case in Dallas would be, you know, a large 
scale drug organization. But in some smaller towns in the 
northern district, their idea of what is a big case--and a case 
that may be plaguing their area, would not be considered a big 
case in Dallas, but it is a big case to them.
    And it is still drugs, it is drugs aimed at their kids and 
they want those drug dealers off the street. DEA, and I am sure 
Julio will talk about this, has what they call the MET team, 
Mobile Enforcement Teams. We were able to put that MET concept 
into play in the Greenville area, brought a case in which we 
were able to indict 25. I believe by this point--we may have 
one fugitive, I believe all of them have either pled guilty or 
been found guilty at this point. And that drug organization had 
a major effect on Greenville. It might not have been considered 
a huge case by Dallas or L.A. or New York standards, but it was 
a huge case by their standards. We try to listen to those 
communities because the problem in drugs, as you gentlemen 
know, is not just in big cities, it is in all villages, 
communities, towns we have got in the country.
    Mr. Souder. I want to followup with that and mix another 
question with that. One of the things that we constantly hear 
is that if all these efforts are taking down all these people 
and we are having such success, how come all the drugs are 
still there and we are still having all the problems. My 
ultimate question here is do you feel that you have had an 
impact on what would have happened had you not done these. One 
of the things we heard in Colombia, as we have taken down the 
major cartels there and changed it, it is easier to track the 
others partly because they are less efficient, less skilled and 
to some degree make more mistakes. In combining that with the 
question on your task force, as I know when I worked for 
Senator Coates a number of years ago, an interesting dilemma 
always occurs as to how far up the ladder you go, because often 
while you are going up the ladder, they are still selling the 
drugs to the kids and so people, particularly farther down the 
cycle, are not real happy campers as you move up. But if you do 
not get the larger organizations, then somebody just steps in 
to replace them.
    At what point do you make a tradeoff? My favorite example 
is a county attorney in Richmond, IN, Indianapolis, which is a 
larger metro area and then feeding into a larger case, they 
were working on somebody who it turned out was the key person 
in Richmond, ultimately the trigger was pulled by a county 
attorney outside that central Indiana jurisdiction because it 
was the biggest drug bust that had ever occurred in Wayne 
County, IN and he was very concerned that they were taking too 
long. On the other hand that spoiled the Indianapolis tracking 
and the national tracking, but the reaction over in this town 
was, hey, we have got this guy, they have been working on this 
several years and drugs were pouring into our schools. At least 
now it will move to another city.
    How do you deal with those kind of things? It is easy to 
talk about cooperation but when money and that problem occurs, 
prosecution, it is hard.
    Mr. Coggins. It is difficult and you are right, it is 
always a balance as to when you move and when you take somebody 
out and when you continue gathering intelligence. I mean every 
once in awhile our hand will be forced, you know, we will hear 
that someone is going to whack somebody and we have got to move 
in and stop it at that point. But this is where OCDETF comes 
into play in its most beneficial form. And that is that we are 
not just sitting there, a bunch of Federal agencies deciding 
when we are going to take it, we are going to have the Dallas 
Police Department there, we are going to have the Tarrant 
County Police Department there, the Richardson folks are going 
to be there. We want the police departments to know that we are 
not there to take the best cases, to take all the good cases, 
but to make a reasoned determination among law enforcement as 
to where the cases ought to go and how long we ought to work to 
develop those cases. So that they are part of the planning of 
this whole thing.
    And I can tell you this, we meet on a regular basis, we 
meet once a month. We have had our differences of opinion, but 
in my 4 years as U.S. attorney, we have never been unable to 
work that out with a district attorney or with a chief of 
police, because their interest is the same as our interest and 
that is to do the maximum--make the maximum impact we can on 
the drug problem in our area, and we have always been able to 
work it out and like I said, farm out certain cases to the 
district attorneys who have been eager and willing to take 
them, handle the others federally, and my theory, quite 
frankly, is, you know, I have never had a fight with a DA over 
a case. If a DA ever says I want to take the case, I say more 
power to you, that is great, because about 95 percent of the 
cases brought in the country are brought by DAs. As you guys 
know, Federal enforcement is a small subset of that. We ought 
to only take those cases that it makes more sense, either 
because we can join more defendants, because of jurisdictional 
issues or because of more bang for the buck at the sentencing.
    But in terms of moving, I can imagine a situation where 
they would want to move before we wanted to move, but the 
bottom line is they are a separate sovereign and if they decide 
to do that, they can do that. What we do in OCDETF is we try to 
sit down at a table like this and work out our differences and 
we have had tremendous success in working out our differences 
here. And that's a tribute really not only to the Federal 
agencies, but to the chiefs of police we have got here and the 
district attorneys we have got here, who have exactly the same 
interest we do, and that is maximum bang for the buck.
    Mr. Souder. I have one last question and that is also a 
difficult question to sort out here, but I kind of wanted to 
get your read on it. I think every law enforcement official in 
the country, regardless of where they are at in this wants to 
see more cooperation as we see not only that international 
example but in Indiana we are heavily hit with the transit 
things coming through here and Nogales, AZ and other places. 
And more and more that information is getting up on linkage 
networks and much more sharing, which sounds really good except 
when you see what is happening in Mexico where they have had 
incredible penetration and increasingly in the United States if 
that information is shared all over the country we are going to 
be subject and vulnerable to penetration as well.
    How do you balance or do you have any sage advice as we 
look at these national information connection systems to make 
sure that the information stays secure?
    Mr. Coggins. Well, you know, obviously the FBI and the DEA 
have huge computer systems with a lot of information plugged in 
about international drug trafficking organizations. And I'm 
sure that is pretty closely held. We have to worry not so much, 
Congressman--I understand that we can always be penetrated, but 
there is--I do not know if you folks have had a chance to visit 
the El Paso Intelligence Center but if you have not had an 
opportunity to visit down there, I think it would be well worth 
your while to go down to EPIC and to see the kind of incredible 
intelligence setup they have there.
    One of the things that we worry about in law enforcement in 
the northern district, it impacts your question a little bit, 
and that is not even necessarily intentional divulging of 
information, but unintentional divulging of information. If you 
do not have the secure transmission channels that--some law 
enforcement agencies can afford them and some do not have them. 
So I think one of the things we have to do when we are involved 
in OCDETF investigation, is to try to make sure that the law 
enforcement agencies, whether they are Federal or State or 
local have secure channels for transmitting information, 
because if they do not--and we have had this happen, we have 
had cases where we were moving in with arrest and search 
warrants in a place and we will see the news trucks pull up 
ahead of the agents to get there, and they have obviously 
picked this up off some radio transmission that was not secure. 
So we have security concerns, and I think that is an area where 
we have got to--if we have a player on the team, if we have an 
agency on our team, we have got to make sure that agency 
understands how important it is to keep these things secret, 
because lives are at stake, not just cases, but lives are at 
stake if it is not--and No. 2, that they have got the 
equipment.
    All our OCDETF agencies, all our OCDETF workers have 
background checks that they go through and we are very blessed 
to have tremendously qualified law enforcement agencies, so I 
am more worried about the unintentional than the intentional 
right now, but I do agree with you that we are going to have to 
worry more and more about the intentional, because as I said, 
the drug trafficking cartels will stop at nothing. If they will 
kill people to practice their trade, they will sure as heck 
bribe or try to obtain confidential information. All I can tell 
you is that the way we have got to do that is to make sure that 
every player on the team goes through an extensive background 
check, understands the importance of keeping whatever 
information we have and we share confidential and making sure 
they have the equipment that will keep it so.
    Mr. Souder. Do you have any additional questions?
    Mr. Sessions. I do not, Mr. Chairman, except a comment and 
I want to just say thank you so much for taking time out of 
your day to be here for this important event.
    Mr. Coggins. Thank you.
    Mr. Souder. I want to say the same and while a lot of 
people are critics that we have not solved the problem, there 
would be a lot more kids dead if you had not done the work that 
you have done and we appreciate that very much.
    Mr. Coggins. Thank you.
    Mr. Souder. At this time, I would like to introduce our 
second panel, if you could come forward. Donnie Marshall serves 
as Chief of Operations for the Drug Enforcement Administration. 
Mr. Marshall is a native of Dallas and previously served in the 
DEA offices in Dallas, Houston and Austin.
    Julio Mercado is a Special Agent in Charge of the Dallas 
Field Division of the Drug Enforcement Administration. He is 
also a member of the Greater Dallas Crime Commission, Texas 
Police Chiefs Association and the Texas Narcotics Officers 
Association.
    I thank you both for being here today. Now that I have had 
you sit down, in accordance with House rules, will you stand, 
we must swear you in. Would you please raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Mr. Marshall, go ahead with your statement.

  STATEMENTS OF DONNIE R. MARSHALL, CHIEF OF OPERATIONS, DRUG 
ENFORCEMENT ADMINISTRATION; AND JULIO F. MERCADO, SPECIAL AGENT 
     IN CHARGE, DALLAS DIVISIONAL OFFICE, DRUG ENFORCEMENT 
                         ADMINISTRATION

    Mr. Marshall. Mr. Chairman, Congressman Sessions, thank 
you. I sincerely appreciate the opportunity to appear here 
today to address the drug trafficking problem in the Western 
Hemisphere as well as northeast Texas. I have submitted a 
complete written statement for the record and I will try in my 
comments this morning to briefly summarize that complete 
written statement.
    Before I proceed, I would like to thank the committee, you, 
Mr. Chairman, Mr. Sessions and the complete subcommittee for 
your support of the anti-drug program of the U.S. Government 
and specifically drug law enforcement and DEA. You have done a 
tremendous job in helping us do our jobs.
    My comments this morning will be an assessment of the 
threat from organized criminal groups from primarily Mexico and 
Colombia and the effect that they have on the United States. 
Although the Colombian traffickers still control cocaine 
production and much of the cocaine trafficking in the Western 
Hemisphere, the sophisticated and organized criminal groups in 
Mexico have really eclipsed the Colombian drug traffickers in 
recent years, especially in the Western and Southwestern United 
States. The leaders of these Mexican and Colombian groups are 
simply the 1990's version of traditional organized crime 
syndicates that United States law enforcement agencies have 
fought since the turn of the century. These new groups, 
however, are far more sophisticated, ruthless, powerful and 
wealthy than the traditional organized crime families that we 
have combatted in the United States.
    Since the early 1970's, drug traffickers from Colombia have 
been using the Caribbean corridor and routes through south 
Florida to smuggle massive quantities of cocaine and marijuana 
into the United States. With increased law enforcement pressure 
and presence in the Caribbean, south Florida and Colombia, the 
Colombian trafficking organizations were forced in recent years 
to turn to experienced Mexican drug smuggling organizations to 
move their products to American markets through Mexico and the 
Southwest Border of the United States.
    A few years ago, the Mexican transportation organizations 
changed the way that they charged the Colombian organizations 
for their services. They had previously been paid a set fee for 
smuggling a certain amount of narcotics through Mexico and into 
the United States and recently they began receiving payment for 
their services in the form of cocaine rather than cash. And by 
doing so, they vastly increased their profits, because they 
were able to set up their own distribution networks in the 
United States and profit more from selling the cocaine than 
from a flat fee for smuggling that cocaine. And with this 
increased wealth came the power to corrupt, intimidate, murder 
and bribe law enforcement and public officials on both sides of 
the border. The traffickers then adopted, the Mexican 
traffickers adopted the Colombian sales system which 
compartmentalized and insulated each function of their 
organization.
    The majority of the cocaine entering the United States 
continues to come from Colombia through Mexico and into the 
United States. In addition, the organizations from Mexico are 
responsible for producing and trafficking thousands of pounds 
of methamphetamine annually. Many of the leaders of these 
Mexican organizations are under indictment in the United States 
on numerous charges. I will spend just a few minutes to 
describe some of these major organizations for you.
    The first of these organizations is the Amado Carrillo-
Fuentes organization. Until July 4 of this year, when he died 
following plastic surgery to hide his true identity, Amado 
Carrillo-Fuentes was the wealthiest and most powerful drug 
trafficker in Mexico and perhaps in the world. There appears to 
be no real clear heir apparent within the organization to 
replace Amado. His death will very likely create some degree of 
disruption, perhaps total chaos, we are hoping, in his 
organization, and among other traffickers battling for his 
turf.
    The Benjamin Arellano-Felix organization is headed by 
Benjamin Arellano-Felix and he operates in connection with his 
brothers. He is the head of a major trafficking organization 
that operates in Tijuana; Baja, CA and parts of the Mexican 
states of Sinaloa, Sonora and Jalisco. This organization is the 
most violent of the Mexican trafficking organizations and this 
organization was involved in the murder of Cardinal Posadas-
Ocampo at the Guadalajara Airport in 1993. The Arellano-Felix 
signature for violence is not only assassinating but torturing 
and dismembering their victims to send strong messages to 
others who may cross them.
    The Miguel Caro-Quintero organization is another very 
powerful organization and the focus of this organization is 
trafficking primarily in cocaine and marijuana. Miguel Caro-
Quintero's brother is currently jailed in Mexico for his role 
in the murder of DEA Special Agent Enrique Camarena in 1985. 
The organization, however, continues to operate and they 
continue to specialize in marijuana trafficking, cocaine 
trafficking and to some degree are involved in methamphetamine 
trafficking.
    The Jesus Amezcua-Contreras organization is based in 
Guadalajara. This organization is currently the world's largest 
smuggler of ephedrine and the largest clandestine producer of 
methamphetamine in clandestine laboratories not only in Mexico 
but also in the United States.
    Joaquin Guzman-Loera began to make a name for himself in 
his drug trafficking career as an air and logistics expert for 
Miguel Felix-Gallardo, and although Joaquin is presently 
incarcerated in Mexico, his brother Arturo assumed leadership 
of this organization. This organization remains very active in 
Mexico, transporting cocaine from Colombia into Mexico, through 
Mexico, across the Southwest Border and into the United States, 
and they operate for the remnants of the Cali and Medellin 
cartels. This organization also smuggles Mexican marijuana and 
Mexican and southeast Asian heroin through Mexico into the 
United States.
    The violence that has long accompanied the drug trade is 
really evidenced now more than ever in Mexico, although it is 
not yet to the degree that was seen in Colombia in the mid and 
late 1980's. The Arellano-Felix organization, which I briefly 
described is in fact considered the most violent and ruthless 
of the Mexican crime families and they maintain well-armed, 
well-trained security forces, which the Mexican authorities 
describe as para-military in nature and say that they've seen 
evidence that these security forces include international 
mercenaries as advisors, trainers and members.
    Drug violence, we have seen, is even spilling across the 
border into the United States, as these traffickers become more 
bold, brazen and violent in carrying out their mandate. The 
majority of the 200 murders in Tijuana, Mexico last year are 
believed to have been drug related. There have been about 28 
high profile drug-related assassinations in Mexico since 1993 
and unfortunately many of these murders remain unsolved.
    At about this time last year, the violence along the United 
States and Mexico border exploded with increasing reports of 
American property owners under siege by armed traffickers. 
Fences were destroyed, livestock were butchered, random 
gunshots were fired into the homes of some ranchers who 
reported seeing armed traffickers from Mexico with night vision 
equipment and communication devices, protecting the movement of 
drugs into the United States. Increased law enforcement 
presence here in Texas along the Texas/Mexico border, 
fortunately have resulted in a diminishing number of reports of 
this type of violence over the last year.
    During the last year also, instances of violence directed 
at U.S. law enforcement personnel have escalated along the 
Southwest Border. In April of this year, two inspectors from 
the United States Customs Service assigned to the Calexico Port 
of Entry were shot after directing a vehicle, which was loaded 
with marijuana, into a secondary inspection. At least three 
separate incidents in recent weeks, Border Patrol agents have 
reported receiving fire from Tijuana and on one occasion in 
May, a gunman from Mexico fired several rounds from the Mexican 
side of the border into the United States at the San Ysidro 
Port of Entry and the shot was fired into a United States 
Border Patrol vehicle, injuring the Border Patrol agent. So 
these are some of the examples of the violence that we are 
seeing spilling over into the United States.
    Drug violence also continues to escalate in Mexico, it 
threatens DEA agents there, it threatens their families and DEA 
efforts in Mexico. Threats against DEA and other United States 
officials have escalated in Mexico and along the border. Since 
September 1996, DEA has documented six specific incidents 
involving threats against our own agents.
    Consequently, in September 1996, DEA established a Mexico 
Threat Assessment Working Group, which consists of all members 
of United States law enforcement at the Federal level, as well 
as intelligence community members. This group seeks to 
consolidate at a single point all information on potential 
threats against either United States nationals or host country 
nationals in Mexico and along the Southwest Border. Since its 
inception in September 1996, this group has dealt with over 40 
threats against Mexican and United States law enforcement 
officials.
    DEA is seeing the emergence of new trends, distribution 
networks, methods of operation among the international players 
against whom we focus our investigations. The Mexican 
trafficking organizations now control illegal drug trafficking 
along the United States/Mexico border, the Western part of the 
United States and well into the Midwest part of the United 
States, especially as it relates to methamphetamine 
trafficking. For the first time, we are even seeing Mexican 
transportation groups delivering cocaine to Colombian and 
Dominican trafficking groups in New York City, a territory that 
was traditionally controlled solely by the Colombian 
trafficking groups.
    In order to protect and shield America's Southwest Border, 
the DEA and FBI have launched into what we call the Southwest 
Border Initiative, which targets the leaders of the major 
Mexican trafficking groups that live in Mexico and control the 
heroin, cocaine, methamphetamine and marijuana trafficking on 
both sides of our common border. This strategy is designed to 
dismantle the criminal groups from Mexico by targeting their 
command and control functions and building cases against their 
United States-based infrastructure. This strategy combines the 
resources of DEA, FBI, the U.S. attorney's office, the High-
Intensity Drug Trafficking Area program or HIDTA, the OCDETF 
program, which Mr. Coggins has already described, the U.S. 
Customs Service and our many, many partners in State and local 
police departments along that Southwest Border. The 
effectiveness of this strategy is only hampered by the 
difficulty in incarcerating the leadership of these drug 
trafficking empires who hide in foreign safe havens like 
Colombia and Mexico.
    I know that the chairman of the subcommittee, Congressman 
Hastert, has an interest in the question of extradition from 
some of these countries. And from my own personal experience 
with Colombia in the mid-1980's, I can tell you that one of the 
things that the traffickers most fear in these foreign 
countries is being returned to the United States and brought 
before the U.S. criminal justice system where they cannot buy 
their way out of conviction, where they cannot buy their way 
out of prison, where they cannot live in the lap of luxury in 
prison. And it is my belief that for the brief time that we 
were able to extradite major drug traffickers from Colombia in 
the 1980's, it was that tool, in my opinion, that led to the 
beginning of the downfall of the Medellin and then the Cali 
cartels, and I believe that it started with the extradition of 
the most notorious criminal, Carlos Lader, who is still 
incarcerated, as a matter of fact, in a maximum security prison 
in Marion, IL. So this is a tremendous tool and I thank the 
chairman of the subcommittee for his interest in helping us get 
this tool back.
    Organized criminal groups, whether they are headquartered 
in Cali, Medellin, Sonora or whether they are home-grown 
versions that prey on people in Dallas, Oklahoma City and other 
United States communities, significantly affect the American 
way of life. These international traffickers have acted with 
impunity for many years and they believe that they are beyond 
the reach of U.S. law enforcement. The attacks on American law 
enforcement and citizens along our Southwest Border and in our 
cities and towns must continue to be met with coordinated 
investigative strategies that will hopefully ultimately lead to 
the demise of these organizations and their organized crime and 
its destructive influence in our communities across the United 
States.
    I would like now to turn to Mr. Mercado, Special Agent in 
Charge of DEA's Dallas Division, who will discuss local trends 
and the steps that DEA is taking here in north Texas and 
Oklahoma to address the drug trafficking situation.
    Mr. Mercado. Thank you, Donnie. Mr. Chairman, members of 
the subcommittee, I appreciate the opportunity to appear before 
you today to address the drug trafficking in northern Texas and 
Oklahoma.
    The criminal activities of the Colombian and Mexican 
criminal groups and their surrogates in the United States are 
affecting not only our Southwest Border areas but major 
American cities such as Dallas and Oklahoma City.
    Dallas is located at the junction of four major United 
States interstate highways, allowing easy access to Mexico and 
neighboring United States. This superior transportation offers 
many opportunities for the international drug traffickers from 
Colombia and Mexico, who have used the area to facilitate the 
movement of drugs, through distribution networks located 
throughout the Midwest and into the Northeastern portion of the 
United States. Wherever these sophisticated organized crime 
groups spread their tentacles, violence follows.
    Colombian and Mexican criminals are allies in supplying 
cocaine to the Dallas region. Prior to the Mexican trafficking 
groups dominating the wholesale cocaine trade in the Western 
half of the United States, Dallas was being used as a 
transshipment point for South American cocaine. Mexican 
trafficking organizations would smuggle cocaine across the 
border and into Dallas, where it turned it over to traffickers 
from Cali, Colombia, for further distribution to the United 
States.
    As early as 1994, DEA seized 3,600 pounds of cocaine with 
over a ton of marijuana from warehouses being used to stage 
deliveries. During 1996, the DEA Dallas Division seized 250 
kilograms of cocaine from Colombian traffickers shortly after 
it had been transferred to them from a Mexican trafficking 
group. Since the Mexican criminal families have come to 
dominate much of the wholesale cocaine market, they continue to 
use Dallas as the warehousing and transshipment location for 
their own cocaine shipment.
    Heroin abuse has sharply increased in many parts of the 
country and Dallas, after seeing a decline in 1994, is 
experiencing a steady increase in abuse, about a 24 percent 
increase in heroin-related emergency room episodes. Dallas has 
seen an 18 percent increase in drug overdose deaths 
attributable to heroin from 1994 to 1997. Mexican black tar 
heroin is the heroin of choice in the Dallas region, with 
deadly effects.
    Prices range from the $250-$300 at the retail gram level up 
to $80,000 to $175,000 per kilogram. Black tar heroin has 
hovered around 10 percent purity on the retail level in Dallas, 
among the lowest level of purity in the Nation, where average 
purity for generic heroin is around 40 percent.
    Methamphetamine. Within the last several years, the problem 
of methamphetamine production, trafficking and use has 
significantly increased. The methamphetamine problems had 
previously been isolated to places like California and some 
rural areas where outlaw motorcycle gangs had operated small 
labs and supplied small quantities of methamphetamine. However, 
during the last several years, drug trafficking from Mexico has 
taken over the meth trade and have expanded it significantly, 
increasing not only the supply of methamphetamine, but the 
violence associated with the trade.
    Clandestine labs operating in Mexico and in the United 
States under the control of powerful Mexican criminal groups 
are the primary source of methamphetamine rapidly invading our 
country. These groups are directly responsible for the hundreds 
of pounds of methamphetamine being sold monthly in the Dallas 
metropolitan area. Mexican groups typically establishing large 
clandestine labs to turn out 150 to 200 pounds of 
methamphetamine in a single 48-hour production cycle, are 
operating on a much larger scale than the pure domestic mom and 
pop laboratories which produce from a few ounces to several 
pounds at a time.
    Tragically, once peaceful Midwest and Southwest communities 
are now absorbing the terrible brunt of the methamphetamine 
damage.
    Some of the Mexican groups involved in this drug trade are 
well known. The Amezecua-Contreras, the organization once run 
by the late Amado Carillo-Fuentes and the Arellano-Felix 
organization. The Amezecua organization is the most formidable 
of all the Mexi- can methamphetamine trafficking groups running 
super labs in Mexico and in California with ephedrine smuggled 
in from China and Europe.
    The Dallas Field Division has seized in excess of 111 meth- 
amphetamine labs in 1997, mostly in Oklahoma. These 
laboratories used two primary synthesis methods, the red 
phosphorous or the pseudoephedrine reduction method, commonly 
used by traffickers from Mexico.
    I made the same mistake.
    Mr. Sessions. I thought you did a great job. [Laughter.]
    Mr. Mercado. Violence attendant to the drug trade. When 
many Americans express frustration about the problems of drug 
traffick- ing and violent crimes in their communities, they 
focus their atten- tion on what is visible to them; the crack 
dealer on the corner, or the police officer murdered on the 
nightly news. They seldom asso- ciate these realities as an 
extension of organized crime group activ- ity of the drug 
traffickers based on foreign soil. These international 
trafficking organizations employ thousands of surrogates in 
ideal transshipment cities like Dallas to distribute and sell 
drugs in American cities and towns. Many of these traffickers 
are gang members who have affiliated with national known and 
prominent street gangs such as the Bloods, the Crips and the 
Latin Kings.
    When street gangs serve as surrogates for foreign crime 
lords, ac- tively distributing drugs on the street, drive-by 
shootings, murder, robbery and assault become commonplace. This 
level of drug-relat- ed violence, once limited to the inner 
cities and urban areas is now being experienced in the rural 
areas of Dallas and Oklahoma.
    DEA has addressed the relationship between drug trafficking 
and violent crimes through our Mobile Enforcement Team Pro- 
gram, which is called the MET. When invited by local police de- 
partments, the MET program sends in a team of investigators, 
spe- cializing in the dismantling of violent drug gangs.
    There are now 19 teams located across the country which can 
be sent anywhere drug gangs are responsible for high crime 
rates and few crimes are being solved.
    The MET program, which was fully funded by Congress in 
fiscal year 1997, is based on the belief that those who 
distribute drugs on the streets of the United States and commit 
violent activities are part of a seamless international 
continuum of drug trafficking organizations headquartered in 
Colombia, Mexico and southeast Asia. The Dallas Division's MET 
team was established in Decem- ber, 1994, and has successfully 
completed seven deployments in Paris, Greenville, Tyler and 
Arlington, TX resulting in the arrest of 156 individuals and 
seizing significant amounts of methamphet- amine and crack 
cocaine, as well as $216,324 in U.S. currency.
    Mr. Chairman and members of the subcommittee, the current 
situation in the Dallas Division and other areas of the United 
States is serious and must continue to be addressed vigorously.
    We would like to thank you again for the opportunity to 
testify at this hearing and hope that we have left you with a 
clear under- standing of the drug trade in the United States 
and how it is impacted by the organized international criminals 
that control the vast majority of the trafficking networks that 
are based in Mexico, Colombia and the tentacles throughout the 
United States. In particular, we hope we have left you with an 
understanding of the drug situation in the Dallas Division. 
With your continued interest and support, we will combat this 
growing threat through joint investigations and efforts that 
will yield positive results. We will be happy at this time to 
answer any questions, sir.
    [The prepared statement of Mr. Marshall and Mr. Mercado 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Souder. Would the gentleman like to go first?
    Mr. Sessions. Yes, Mr. Chairman.
    Mr. Souder. Mr. Sessions will start the questioning.
    Mr. Sessions. Thank you.
    Mr. Marshall, Mr. Mercado, thank you for being here today. 
I hope you know that Chairman Souder and myself care deeply, 
not only about the work that you do, but the people that you 
represent, because you are on the forefront of the problems and 
I know it comes at great risk to not only their lives, but also 
the interference that they would have with their families, but 
I hope that you know that we are deeply committed to providing 
you not only with the resources but also changing the laws as 
they interact, and offer you the ability to win this war on 
drugs.
    Having said that, I would like to read also a very 
important message that your Administrator--Administrator 
Constantine's message from the Report on Methamphetamine 
Situation in the United States from just last year. In the 
first few paragraphs, he stated, taken from a case, ``During 
the summer in New Mexico, a father, while high on 
methamphetamine, beheaded his 14-year-old son.''
    And in the same message, your Administrator described how a 
mother and three young children under 5 were seriously burned 
when a meth lab that was located in a trailer home adjacent to 
them burned. Two of the children were rushed to a hospital in 
critical condition and one died. The responsible father fled 
the scene, abandoning his critically injured family, before the 
rescue teams arrived to assist them.
    And from what I hear from each of you and from Mr. Coggins, 
the problem is getting worse. In several cities, 
methamphetamine-related deaths are up over 50 percent in the 
last 3 years. In 1994, there were over 700 methamphetamine-
related deaths in the United States. The number of emergency 
room drug abuse episodes involving methamphetamine have 
dramatically increased since 1992. The number of 
methamphetamine-related episodes recorded during 1994 almost 
doubled the number of episodes from 1989. In 1995, the Drug 
Enforcement Administration seized 241 methamphetamine labs. 
That is 1 year, 241 meth labs. Most of these occurred right 
here in the Western United States and many of them right in 
Texas.
    In 1994, the United States Customs Service inspectors 
seized 5.7 metric tons of ephedrine, a key chemical used to 
produce methamphetamine designed and made in Mexico.
    The drug is poisonous and it is also available. After 
prolonged use, methamphetamine lead to binging, which is a 
consuming of the drug regularly for up to 3 days without any 
sleep. These binges can be followed by severe depression, 
worsening paranoia and aggression and a period known as 
tweaking. I am sure that each one of us have heard about people 
on cocaine and we are aware of the withdrawal that they go 
through, but this tweaking is very severe, because then a user 
collapses from exhaustion, waking up days later just to begin 
this cycle again. That is addictive, that is destructive, that 
is what is happening, not only to users but the children in 
this country.
    The new ephedrine-based methamphetamine is worse, however. 
It leads to sleepless binges that can last up to 15 days and 
that end in crashes that are far worse than just those from 
regular strength methamphetamine. Is that not amazing? We have 
strength, regular and extra-strength methamphetamine now.
    Now this drug is not unlike many others that we have in 
society. It is killing people, and I think it is time that this 
be stopped. Today, if you are caught with 10 or more grams of 
methamphetamine, you are considered to have manufactured or 
possessed with the intent to distribute methamphetamine, and 
there is a mandatory minimum sentence of not less than 5 years 
and not more than 40 years in a Federal penitentiary. If death 
or serious bodily harm, injury, results from this sale of 
methamphetamine, the killer could get not less than 20 years 
and certainly not more than life in prison.
    If you are caught with 100 or more grams of methamphetamine 
and you are considered to have manufactured or possessed with 
the intent to distribute methamphetamine, there is a mandatory 
minimum sentence of not less than 10 years and no more than 
life in prison. If death or serious bodily injury results from 
the sale of more than 100 grams of methamphetamine, the killer 
would not get less than 20 years and no more than life.
    I would suggest to you as well as our chairman, Congressman 
Souder, that this simply is unacceptable. Anyone, I believe, 
who manufactures methamphetamine who knows that the effects of 
this drug is to kill people, then they in fact themselves are 
killers, and if the penalties for manufacturing this drug in 
the United States are no more than those for importing it from 
Mexico, then there is no disincentive to the drug thugs here in 
America.
    I, as I stated earlier, am going to propose that we go back 
and amend Title XXI of the U.S. Code and require for anyone 
caught in any way involved in the manufacture of 
methamphetamine in the United States will receive a mandatory 
life sentence in the Federal penitentiary. I will be working 
not only with my staff but other Congressmen and Senators on 
the Hill to make sure that America is not a safe haven for 
merchants of death, and I am talking about drug thugs.
    I hope that you see very clearly that not only do Americans 
and members of law enforcement have our attention, but that 
also Members of Congress, no matter what party they were in, 
can recognize how serious of an offense this is. We intend to 
do something about that.
    With this statement, I would also like to ask a few 
questions, if I can, of each of you.
    As you talked about this importation of drugs, are you 
finding that there are people who specialize in their products, 
or do they piggyback their multiple products on each other in 
that they will become a distribution channel for 
methamphetamine, for heroin, for cocaine? What are you finding?
    Mr. Marshall. I think, in my opinion, we see that the 
Colombian organizations are mostly concentrating on cocaine, I 
mean at the present time at least, that is their primary source 
of revenue, that is their primary focus. However, they have 
always--many of these groups have always been involved in 
smuggling marijuana as well. A more recent trend that we see is 
that Colombian traffickers are involved in the growth of opium 
poppies in Colombia and the production of heroin in Colombia, 
and what we see in that regard is that the Colombian 
trafficking groups are actually using their cocaine 
distribution networks to promote the distribution of heroin. We 
have even seen some cases where they would introduce heroin 
into markets by attaching a condition to the sale of cocaine. 
We will sell you 100 kilos of cocaine, but you must also take 
this 5 kilos of heroin and move it. And what we see now is that 
the Colombians are moving more and more into controlling the 
heroin distribution networks primarily on the East Coast, but 
also they are moving into markets like Dallas, TX.
    With regard to the Mexican groups, we see that each group 
has generally a particular specialty or two, such as the Amado 
Carillo specialized primarily in cocaine and marijuana. But we 
have for several years now referred to these organizations as 
polydrug trafficking groups and we are seeing more and more and 
more that the Mexican organizations take advantage of their 
already long, well established distribution networks in 
primarily marijuana and heroin, which is their traditional 
drugs, but they use those networks to further their 
distribution of all four of the drugs--heroin, marijuana, 
methamphetamine and cocaine.
    So it is a combination that we are seeing.
    Mr. Sessions. When we talked about, and Mr. Coggins talked 
about, DFW Airport and the transportation channels, 
distribution channels that were used of the airlines and cargo 
holds and things like this, for big shipments, is that 
generally someone who is inside in the airline, who is aware of 
this, or how do you find that this actually occurs?
    Mr. Mercado. We have found it both ways. When I was 
stationed in San Juan, Puerto Rico, we found out that the 
employees were the ones who were assisting the traffickers in 
transporting their drugs through cargo shipments, and through 
airlines, especially on the weekends when there is less 
security. We are seeing now in the last 6 months, I think we 
have seized 5 kilos of heroin coming from Colombia into the 
Dallas/Fort Worth area. So we are seeing that.
    Now, we are going to be targeting a lot more the cargo 
shipment, which is something we were not doing, and we are 
doing that now. Our group is being expanded to include the 
cargo area at DFW.
    Mr. Sessions. Outside of this what I would call commercial 
air, can you give me a sense without revealing the numbers, a 
sense of what flights are coming into our country every day 
through private aircraft, perhaps those owned by drug 
distribution people? Evidently like over Big Bend, you are 
seeing this as a continuous flow or operation that they 
utilize.
    Mr. Marshall. Let me comment on that from a national 
perspective. One of the other earlier witnesses, I believe it 
was Mr. Coggins, said that these things tend to run in cycles, 
the traffickers will use one method and then we catch up to 
that method and put pressure and the balloon squeezes out 
somewhere else. And this is particularly true with regard to 
your question about aircraft.
    What we have seen frankly in the last few years, couple of 
years, I would say, along the Southwest Border is really 
somewhat of a decline in the use of private aircraft, smaller 
aircraft. Now you still see commercial aircraft using couriers, 
body carries, people ingesting cocaine, heroin, that sort of 
stuff. But the predominant method along the Southwest Border 
right now is smaller shipments in private automobiles and 
hidden compartments in trucks. That is the general national 
trend that we are seeing.
    Now I would have to ask Mr. Mercado to comment on the 
commercial airline aspect of that through Dallas/Fort Worth.
    Mr. Mercado. We are working on it, sir, we are trying to 
identify the major points we can attack to prevent it from 
going in. At the present moment, Dallas is I think a security 
point three, which is you have to show identification, they can 
check your bags. So you are not going to see the same amount of 
drugs going through here that we saw body carrying, say 2 years 
ago. You might see it more in cargo than you will see it 
because of the security measures that are being handled at the 
various airports.
    Mr. Sessions. Would you comment then on any particular area 
or anything in dealing with the law--I am not asking you to 
write a bill, I am not asking for you to lobby, I am asking for 
you to comment on existing law, as you are dealing with not 
methamphetamine particularly, but rather things coming into the 
country; is there any particular area that you think the 
chairman and I should take back to Washington, an area that we 
should look at that would give you a greater ability to fight 
drug traffickers and them bringing things into the country.
    Mr. Marshall. There is one area, Congressman, which is of 
particular interest to law enforcement, and that is in the area 
of our ability to legally intercept the communications of the 
drug traffickers. We, at the Federal level, DEA, FBI, in 
conjunction with our State and local counterparts, in a 
partnership, we try to attack the traffic at all levels, this 
incudes the retail distributors that are doing the violence, it 
includes the wholesalers and the command and control 
structures. One of our biggest and most important tools in 
attacking the command and control structures of these 
organizations is our ability to intercept their communications. 
The traffickers themselves are becoming much more sophisticated 
in the way they communicate with each other and it is making 
our job more difficult.
    There are two issues, one being the Communications 
Assistance to Law Enforcement Act or CALEA, which will enable--
with digital telephony and fiber optics and that stuff, it will 
more effectively enable the local communications companies to 
cooperate with law enforcement. There is a price tag to it and 
we need to, in my opinion, ensure that we have that tool so 
that the private companies do have the resources that they need 
to cooperate with law enforcement.
    The other aspect of this is the issue of encryption. There 
is a lot of people, not only drug traffickers, but business 
people who are interested in maintaining trade secrets, that 
sort of stuff, who want more in the way of encryption and the 
ability to use cellular telephones, for instance, and be 
assured of their privacy, and certainly that is a valid, 
legitimate consideration and it should be--the ability should 
be there. However, if we do not build in some type of ability 
for law enforcement people to, with the adequate protections of 
the law of course and with warrants for that, to somehow 
intercept the conversations of these vicious criminal 
organizations, then we are going to lose a very important tool.
    I think these are two areas which are being discussed and 
debated in Congress right now and I just cannot over-emphasize 
the importance of those things to law enforcement.
    And I suppose the other item that I would focus on would 
be--I agree with you, Congressman, that we do need stiffer 
penalties in the area of methamphetamine. I look at what some 
of the stories, and you referred to a couple of those out of 
our methamphetamine national strategy report, but I was at that 
conference and in addition to the two examples that you gave, I 
heard a lot of other horror stories, absolute horror stories 
about this drug. It is just astonishing, it is amazing to me to 
see the amount of violence that is associated with this drug, 
the amount of spousal abuse, the amount of child abuse, the 
amount of child neglect, just basically the amount of violence 
and death that is associated with this drug. And I think that 
this drug right now, at this point in our history, does warrant 
some special consideration. So I think that could be a very 
valuable tool.
    Mr. Sessions. Thank you. Your comments only help me to know 
that I believe that we must fight and win this war in America. 
We cannot look to someone else to solve our problem and so I 
take your comments very seriously and I thank you. Mr. 
Chairman.
    Mr. Souder. Could you explain a couple of the nuances of 
this encryption debate and that is, you said it would require 
legal authority to crack the code and so on. I am sure people 
hear the telephone and some of that, and that sounds pretty 
important when you start to get into Internet, you realize we 
are really headed into a worldwide type of question here. Also 
I am sure part of the resistance is a general fear that--quite 
frankly, I do not have a ton of sympathy for people who are 
violating any kind of law, but including IRS information and 
other types of things or potential allegations that you might 
overhear and assume something is happening. When you can break 
through a code and you are searching for information on the 
drug issue, what about if you hear information that is 
suspicious related to other potential crimes, not necessarily 
that they are, but do you have to report that? How is that 
done?
    Mr. Marshall. Well, there are a rigid set of guidelines 
that govern our ability--that govern what types of conversation 
we listen to and what types we cannot listen to. And what we 
do, when we conduct a legal wiretap, obviously we go before a 
competent judicial authority, we obtain a warrant for that 
communication and we have meetings and we have only certain 
people who are authorized to listen to that wire and we also 
have what we refer to as a minimization rule which allows us to 
listen to any conversation just long enough to determine 
whether it is drug-related and germane directly to the things 
that we have outlined in the warrant for that intercept. And 
when we determine--if we determine that that conversation is 
not related to what we have a warrant to listen to, then we 
have to minimize our listening to that conversation, basically 
shut it off at that point.
    Mr. Souder. And you can do that on the telephone, why would 
not, if we do not have that ability to do it in e-mail and 
computer type things, why would the traffickers not go to that 
and how would you sort similar conversations?
    Mr. Marshall. It is conceivable that they would go to that, 
Congressman. And not being an expert or even fully literate 
with regard to Internet matters, I really--unfortunately, I am 
sorry, I cannot adequately comment on that. But I know that 
that is a concern of many in our business, that the next 
channel of communication may well be the Internet.
    Mr. Souder. It is something we ought to discuss, because if 
we get it shut off early on that we are not allowed to 
interfere--I noticed, because that was my immediate first 
reaction of how does this affect law enforcement if we--it is 
tough to balance individual rights, particularly when you do 
not necessarily have the technology to do it in the way that 
you said. I was curious too, I had not seen--this has been 
interesting today because Turkey was something back in the 
French Connection and all of a sudden it is the Lubbock 
Connection with Turkey, but I also saw in your testimony you 
mentioned India as being involved, abusing citizens, ephedrine 
contacts in Thailand and India. Do you see that very often or 
was that----
    Mr. Marshall. Well, we do, yes. We see ephedrine coming to 
the illegitimate market from--it is produced in Europe, it is 
produced in China, I believe it is produced in India, and we 
see the drug traffickers aggressively going after sources of 
ephedrine and pseudoephedrine and in all of those places, what 
we see is that they make purchases on that international market 
and it is shipped to countries such as Mexico, Guatemala, 
perhaps other countries and then it is eventually gotten into 
Mexico where it is used in methamphetamine labs either in 
Mexico or in many, many cases is smuggled across the border, 
just as drugs would be and then utilized in the United States 
in the methamphetamine laboratories.
    Mr. Souder. Could you expand a little bit on ephedrine, is 
it not what is in aspirin and other types of legal drugs and at 
what point does it become a controlled substance and illegal 
and is that not part of our difficulty, is the volume and is 
that not partly why like marijuana there is this myth that 
these things are not dangerous when in fact they are much more 
dangerous than they used to be, depending on the mix.
    Mr. Marshall. Right. Well, you actually have two substances 
that are of concern to us. The first is ephedrine and that is 
produced primarily in China from the ephedra plant, it is a 
natural substance, and it was used predominantly in 
methamphetamine production up until several years ago when it 
was controlled under the--I forget the name of the act, but 
several years ago it was controlled. Now once it was 
controlled, it became more difficult to get in the United 
States and traffickers started moving to the pseudoephedrine 
method. And that has not been controlled.
    The ability for the traffickers to use pseudoephedrine is 
certainly to some degree dependent upon the easy availability 
of that in cough and cold remedies and it is used in such 
things as allergy medicines, cold medicines, cough and flu 
medicines and that sort of stuff. If you go into a pharmacy and 
look on the cough and cold rack, you are going to find 20 or 30 
or 40 different brands lined up on that shelf and if you pick 
them up and examine them, you are going to see that many, many, 
if not virtually all, contain some amount of pseudoephedrine.
    Now the pseudoephedrine has been controlled, by the way, it 
was controlled in the Conference on Methamphetamine Control Act 
which was passed last October I believe and the controls take 
effect this October. And what that will do is control primarily 
the bulk sale of these tablets that contain pseudoephedrine.
    What we had seen was the mom and pop laboratories that are 
the ones that primarily remain in the United States, they would 
send a few people around say to 20 drug stores in Dallas, TX or 
any other community in the United States and they would 
literally buy up cases of this stuff. If they could, they would 
go back to the pharmacy and say I want a case of Sudafed or I 
want three cases of Sudafed. It is that type of purchase that 
we are trying to limit. Now that will not totally eliminate the 
methamphetamine market, but it will have an impact on the mom 
and pop laboratories, and it was also in the spirit of 
controlling that type of operation that Wal-Mart and later a 
couple of other companies entered into a partnership with DEA, 
and they have taken measures to make that--those drugs a bit 
more difficult for the traffickers to get, but at the same 
time, without impacting upon their availability to the general 
public. And basically the way we do that is that the sale of a 
certain quantity, and I believe it is something like a 60-day 
supply, is uncontrolled. If you exceed that amount for a single 
purchase, then at that point, it becomes a controlled 
transaction and there are certain recordkeeping things that 
have to be done on that.
    Mr. Souder. Are these drugs predominantly, like marijuana 
and crack, targeted at younger people? I noticed, Mr. Mercado, 
one of the labs here in this area was next to a school.
    Mr. Mercado. That is correct, sir. They are looking for 
high school students, they will even go to junior high school 
because we know they are affecting colleges, they go as low as 
junior high school and even in some places grammar school.
    Mr. Souder. Is it like an initial gateway drug? Often do 
they try to move them to harder substances then?
    Mr. Mercado. It is like marijuana where you give it to them 
once--once you get them hooked on it, they will continue, but 
it is more dangerous than marijuana. And every arrest we have 
made so far, every lab, the last lab we took off in Oklahoma, 
there was in excess of 11 weapons. So these people are violent. 
There are a lot of weapons.
    Mr. Souder. Could you give me, as a Yankee, a little bit of 
an idea here on how Dallas/Fort Worth fits into the rest of 
Texas. I think we have had the people from Eagle Pass, I think 
it is, on the border, kind of been flooded, but how do Houston, 
San Antonio, Austin, some of the cities fit into a pattern? We 
talked about this airport being in international commerce. 
Could you give me some--I mean does anything come up the ship 
canal from Galveston to Houston and what are some different 
ways?
    Mr. Mercado. What we are looking at is, for example, 
marijuana, cocaine and heroin coming through El Paso and going 
to the northern part of Texas and it lays in this area and from 
this area it is distributed to various points and warehouses. 
We have numerous warehouses that are all over Dallas, where you 
can actually store this merchandise and then take it up in 
small amounts. Some of it stays here. I would say a good 25 
percent stays here, the rest goes up to the major cities in the 
east and the west.
    Mr. Souder. So you are saying three-quarters moves out of 
here. Would San Antonio and Houston, for example, be 
substantially different, that three-quarters of the drugs would 
stay there and they are not as much of a warehousing center?
    Mr. Mercado. Well it depends where you come, because for 
example, some of the drugs from Brownsville and McAllen, TX 
would probably be stored in Houston and from there distributed 
to other parts of the United States. So you have two different 
locations where the drugs can be stored and sent to other parts 
of the United States.
    Mr. Souder. What would you say is the most important thing 
we could do related to this region in Washington in addition to 
the methamphetamine legislation?
    Mr. Mercado. Well, as Mr. Marshall stated, we need to 
attack the communications of these organizations, we really do. 
That takes manpower, that takes money. And we need more 
manpower, we need more money to--we have to hire people to do a 
lot of our translations, a lot of our monitoring of Title IIIs, 
because we just do not have the resources. Normally, right now 
we probably have seven in our area and the resources are just--
manpower, it really makes us short of manpower, so we have to 
go out and get--hire people to help us or work with--the locals 
are always helping us but still and all, it is very expensive 
and you need a lot of manpower. And that is the only way--we 
have to attack them that way because they have to communicate. 
To move their drugs, they have to communicate.
    Mr. Souder. Have you had--clearly we have had tremendous 
problems, vis-a-vis Mexico and the trust factor, have you had 
much interrelationship there, particularly with these kinds of 
warehouse shipments, any cooperation on tipping--I mean, unless 
you get sources who are going to tip you off, it is impossible 
to find what machine tool box something is in.
    Mr. Mercado. There is a lot of sharing of information 
throughout the United States now between the Federal, the State 
and the local authorities.
    Mr. Souder. What about with Mexico?
    Mr. Mercado. Mexico, there is some information coming out 
of our offices in Mexico.
    Mr. Marshall. Let me comment on that a bit if I may, 
Congressman, we have a contingent of I believe it is 39 special 
agents in Mexico in five or six different offices, and we do, 
to the extent possible, work with the Mexican authorities 
there. We are there in an overt capacity, we have no actual law 
enforcement authority there, so all of our ability to operate 
in Mexico derives--and in any other foreign country, for that 
matter--derives from our relations with the law enforcement 
officials of those countries. There, as you know, has been a 
very vast and public debate about Mexico during the 
certification process and I would simply say that DEA and the 
FBI continue to cooperate with Mexican law enforcement, to the 
extent that we can and to the extent that they have the 
capabilities to assist. And we believe that that situation 
there is showing signs of improving and we are hopeful that we 
will have even more capabilities in the not too distant future 
in that regard.
    Mr. Souder. Has DEA put any agents back into Tijuana or 
were they all pulled out of that State?
    Mr. Marshall. With regard to the bilateral task force 
operation in Tijuana, we have not yet returned our agents to 
that operation, nor have we returned them to the Juarez 
operation. The reason for that, quite simply, is that we have a 
security issue with our agents going across because of the 
violence, because of the assassinations, because of the threats 
that we have received, and because of the lack of--what we 
believe at least, the lack of physical security for our agents. 
We are currently discussing those issues with the Mexican 
Government and at some point in the not too distant future, I 
hope that we can get those issues resolved so that we can once 
again begin working in those bilateral task forces. What we are 
doing in the interim, however, is we are continuing to try to 
work to the maximum extent possible that we can with our 39 in-
country agents to fill in the gap, so to speak, the void, so to 
speak, until we can get this issue resolved.
    Mr. Souder. I certainly hope so, I know President Zedillo 
seems very committed, but it is disturbing to come as somebody 
who is from the inner part of the country and hear that the 
trucks are bringing the drugs in, that there is a warehousing 
type of thing and yet we cannot even have DEA along critical 
parts of our border because they are not safe. We see about the 
reporter who was shot the other week, who was investigating, 
and it is a disturbing trend to all of us because it is our 
kids and our families and our communities that are at stake in 
this. But I do not think it is necessarily certain parts of the 
top but at the very top of the government, but we have to get 
ahold of this because, I mean, I see the increased trucking 
pressure and have looked at the border points and I have grave 
concerns about how it is going to be possible to control that, 
even if we control the airspace.
    I have no further questions. Do you have any more 
questions?
    Mr. Sessions. I just hope that we are successful to go find 
bigger fish, like Mr. Fuentes was. I encourage them all to go 
in and get all the facial changes that they want and let them 
die on the table.
    I appreciate and respect you for the job that you do. Best 
of luck and thank you so much for your time to be with us today 
and have a successful week. Thank you.
    Mr. Souder. Thank you very much.
    At this time, I would like to introduce our final witness, 
if Mr. Yarbrough would come forward.
    Kenneth Yarbrough is the Chief of Police for the city of 
Richardson, TX. Chief Yarbrough is a member of the Governor's 
Task Force on Juvenile Crime, the Texas Municipal League's 
Committee on Public Safety and the immediate past president of 
the Texas Police Association. He is also past president of the 
Texas Police Chiefs' Association.
    Chief Yarbrough, we thank you for being here today and I 
need to swear you in.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness answered 
in the affirmative. My understanding is that rather than read 
your statement you wanted to go straight to some questions. Do 
you want to make any introductory comments? We will certainly 
put your whole statement in the record.

  STATEMENT OF KENNETH R. YARBROUGH, CHIEF OF POLICE, CITY OF 
                         RICHARDSON, TX

    Mr. Yarbrough. Thank you very much, Mr. Chairman, members 
of the committee. I would just like to touch on a few areas 
that I think are the critical areas concerning local law 
enforcement.
    Local law enforcement obviously has a different perspective 
in the fight against drugs than our Federal agencies do. When a 
person picks up the phone and calls 911, he gets the local 
police agency, not a Federal law enforcement agency.
    People in this country are concerned at two points--the 
point where the drug dealer is invading their peace and 
tranquility in their neighborhood or the effect of the user who 
is committing other crimes against them to finance his drug 
addiction. Most people are not very concerned in this country 
about transportation, manufacturing, importation kinds of 
issues. We all operate on our self-interest and our self-
interest is when in my neighborhood I cannot walk the streets 
feeling safe, when an apartment complex, an apartment in that 
complex is high traffic drug users purchasing their illegal 
drugs. These are the kinds of things that drive me, as a normal 
citizen, to have a fear, the fear that we know also exists from 
all the burglaries, robberies, thefts that are being 
perpetrated upon our law abiding citizens to finance their drug 
addiction.
    It has always been an interesting concept for most of us in 
local law enforcement that so few in this world can affect so 
many, when you look at the 10 individuals and their 
``families'' in Mexico and a near same number in Colombia are 
capable of affecting so many people in this country. DEA must 
continue its effort on the foreign soil to alter and affect the 
behavior there. I doubt the success is going to be very great 
until this country accepts some major foreign policy shift in 
how we deal with those who are responsible for so much harm in 
this country.
    Twenty-five years ago, about 85 percent of every murder in 
this country was committed by somebody you knew very well. 
Today it is about 50 percent. That other 50 percent are 
stranger-related homicides amounting to almost 20,000 a year, 
the bulk of those are in some ways directly involved in 
substance abuse. And that does not talk about the vehicle 
fatalities, the overdoses and all the other harm that is 
related to drug abuse.
    If we are going to win in any way, we must begin with an 
education policy that shows very limited immediate results. We 
must commit to a demand reduction education policy that begins 
in the first grade, preschool, and lasts throughout all 12 
years. Police agencies at the local level have school resource 
officers, DARE programs, a wide variety of things that target a 
lot of our middle schools and junior highs, but they are 
usually only 1 or 2 years in length. Outside of the three Rs in 
this country, I do not know what other things our schools need 
to do that are more important than to teach our children how to 
survive by not engaging in the destructive behavior that drug 
abuse and drug addiction can bring.
    We should find, whatever the method--and the Federal 
Government has a great deal of ability through pass-through 
moneys, to make effects upon local entities. You all know that. 
We need to begin with kindergarten, first grade, an education 
program. We must bring the parents into that education program, 
it should be voluntary, but there should be some incentive for 
it to be voluntary, and that incentive is that if the child of 
that parent winds up in some drug related problem, that that 
parent's liability for the behavior of that child needs to be 
elevated and you can reduce that liability if that parent was 
educated along with the child in its abuse and drug abuse 
educational programs. And that would be the way to bring the 
parents into the educational process so that they would know 
how to deal with the drug-abuse related issues.
    Advertising. You know, in this country, advertising plays 
such a grand role in all of our attitudes and our behaviors and 
the Federal Government even recently in its tobacco-related 
issues has recognized the importance of advertising and its 
effect upon our young people. We need to commit some moneys at 
the national level to a good well-thought-out advertising 
program that will assist us in our drug education effort. 
Advertising is a strong medium in this country, we should be 
using it and we are not using it anywhere near the level it 
should be.
    Second, as I mentioned earlier, when the drug dealer is 
selling his wares on the corner, is when people are frightened. 
I believe we can alter the open behavior of the retail drug 
dealer and I think we can do that with concerted aggressive 
major enforcement directed at the street drug dealer, because 
he is the one that drives the fear in our neighborhoods. We 
should be able to do that by increasing our effort, our 
prosecutorial efforts, our courts dedicated to that purpose and 
to make him, through the risks of punishment, alter his 
behavior.
    Now I do not want you to believe that that is going to 
reduce in any way the amount of drug use in this country, and I 
do not offer that to you for that regard. I offer it to you 
because it will deal with the perception of fear that exists in 
our neighborhoods. When we can drive the drug dealer 
underground, when we can alter his behavior in such a way that 
he must secret himself in order to carry out his business, we 
will have given a great degree of freedom back to the people 
who are trapped in the cycle of fear where drug dealing is a 
major part of their neighborhood and their community.
    I think that in the certainty of punishment, history in 
this business has told me and taught me that it is not the 
length of your sentence, it is the certainty and the swiftness 
by which it occurs. And if we can dedicate some resources to 
courts, prosecution and some minimal kinds of mandatory 
sentencing, then we will alter the behavior of the street drug 
dealer.
    Finally, I would like to touch for a minute--we have just 
come through the last year of the Megan law and registration. 
In the early 1970's there were attempts to bring about drug 
dealer registration. I think that with the experience that you 
have gained in the Megan laws and the registration of sex 
offenders, that we should now look to registering convicted 
drug dealers. Give them limited places to hide, give law 
enforcement the ability to know who they are and where they are 
and I believe that we can put some additional pressures on the 
street dealer and their activity and their behavior.
    You have my written comments. Again, I appreciate the 
opportunity to be here and would certainly entertain any 
questions that you may have, Mr. Chairman.
    [The prepared statement of Mr. Yarbrough follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. Mr. Sessions, would you like to start?
    Mr. Sessions. Yes, thank you, Mr. Chairman.
    If you could discuss with me--you are a part of task forces 
in our State, can you talk with us about this problem that we 
have with children being the brunt of drugs? Is it a product 
that people are in for the--I mean, these drug cartels, they 
are organized, they see where their market is, they market 
their drugs, they go and get other children to sell drugs. If 
you could just comment on this because I think there is a lot 
of insight about the mind of these organized drug cartels. Can 
you talk to us about that and them targeting our children?
    Mr. Yarbrough. Thank you, Congressman.
    The decisions are probably not made at the cartel level 
because there are many steps in the distribution of drugs and 
when you get to the retailer--and that is the only point that 
really matters in the whole chain--if there is nobody who is 
the ultimate retailer, who sells to the user, all other things 
fail. It matters not what they did or how much they imported or 
anything, manufactured or grew. And a retailer in the drug 
business is not that unlike retailers in all business. They 
have niches, they have market areas, they continue to try to 
grow their market, they want to have a place with which they 
can sell their product and make the profit that is derived from 
it.
    And I suspect that the decisions are made at those levels 
where people are buying 10 pounds of marijuana, who are buying 
full ounces of cocaine. They are then deciding how they are 
going to market their shipment. And it does not differ a great 
deal from a local convenience store. They do not maintain 500 
cases of Coca-Cola in the back, they get a shipment every day 
of 10 cases or whatever it is that they are going to sell. And 
they are going to alter their behavior to whatever market that 
is available.
    Nothing is more horrible than a parent who is dealing with 
a child who is demonstrating the signs of drug use and to find 
out that that child is securing his sources of drugs in and 
about his school. Someone is selling that to that child or 
maybe not even any longer a student in the school. Many of the 
kids who are no longer in school are the ones who still 
maintain the contacts in the school and who are able to be the 
supplier to a great number of children in and about that 
particular school.
    They become very--the circle for the individual retailer is 
not extremely large because if he gets too big and too 
reckless, he is probably going to sell to an agent of the 
police, which will not be to his advantage. And so I think that 
if we can alter his behavior--it is not going to stop it, it is 
not even going to slow it down, but it will reduce the fear and 
fear is a great thing that drives this country. When people are 
afraid to walk the streets, afraid to allow their kids to go to 
school, afraid to let their kids play in an apartment complex 
because of the trafficking, we should be attacking with the 
greatest vigor we know those people.
    Mr. Sessions. As I drive around not just the Fifth 
Congressional District of Dallas, but all around Dallas, I have 
been very aware of gang markings or what I consider to be gang 
markings, distinctive writings, distinctive markings that may 
be on a wall that I have always been led to believe marked a 
territory, indicated a presence. Do you believe or could you 
talk with me about street gangs? And I am talking about--we 
heard testimony earlier about the Bloods, the Crips, the--
whatever these gangs might be. Within your jurisdiction, what 
do you see street gang activity as it relates to drugs and 
their involvement, sir?
    Mr. Yarbrough. Well, you know, gangs are not new in our 
society, they have been with us for thousands of years in one 
form or another. It is relatively new, the type of violence and 
the drug relatedness of the gangs that we see today.
    The reasons why kids join gangs and participate in gangs 
are a sociological issue that is relatively well explained in 
the literature, but they all engage in some form of behavior 
that allows them to have money. And therefore, a great deal of 
it or ease of it is drug related. It does not mean that is all 
they are going to do, they burglarize cars, they steal cars, 
whatever happens to be available to them and whoever happens to 
contact them that has some relationship with them, they will 
sell drugs, they will use drugs. It is a relatively common 
activity for those kids in drugs to be users and abusers of 
substances. They will also sell the substance if they have the 
right approach, someone approaches them, makes it available to 
them, they will certainly sell it. But they are very heavily 
involved in the use of substances, illegal substances.
    The graffiti you see, you know, is another fear and 
intimidation factor. People become frightened in our cities 
when the buildings and the landscape begin to become cluttered 
with graffiti and one of the best things that we do is have 
graffiti abatement so we get it off there immediately.
    The perception of fear in our country drives so much of why 
our citizens are concerned. And reality is not always the 
absolute certainty, it is the perception and we must deal with 
the perception.
    Mr. Sessions. Likewise, I think it is important for us to 
know that in your vigilance to attack this, that every single 
call that comes in is from a person that probably forthrightly 
is trying to expect that you would do something about it and 
then likewise, whatever happens will determine whether they are 
afraid or not. So it is very interesting.
    Mr. Yarbrough. Your ability to respond and satisfy the 
citizens' expectations is whether you will be regarded well or 
regarded poorly.
    Mr. Sessions. I can tell you, sir, that one thing that 
comes out of this hearing is Special Agent Mercado telling me 
that where a city, where a community asks for help from the DEA 
in Texas, they will receive that help. That is serious, that is 
meaningful, as well as your department, when someone calls, you 
take very honestly that responsibility that you have.
    I have concluded my questions, Mr. Chairman.
    Mr. Souder. I had a couple of questions related to--I am on 
the Education Committee as well and on another subcommittee of 
Government Reform, which has oversight over education as well 
as interacting with the Children and Family Subcommittee and we 
just did the Juvenile Crime bill. And I had some long time 
interest and wanted to know, in your workings, not only in your 
home area, but in your State association, do you know anybody 
in Texas who has a parent liability law?
    Mr. Yarbrough. Well, the family code in Texas since 1975 
has had a family liability clause in it. The difficulty in that 
is that it is a civil process and it is outside of the 
adjudication of the child as a delinquent. It is limited now, 
it is raised from $5,000 to $10,000, you can recover up to 
$10,000 for damage to property by the actions of a child, from 
the parent of that child.
    This is not used, it is not workable, we need--again, it is 
not the amount of punishment, it is the certainty that 
something follows and I do not care whether it is 200 hours of 
community trash pickup along the side of the roadway, that is 
far more effective than something that is not used and is not 
going to be used.
    Mr. Souder. I was trying to zero in, you had an interesting 
concept which is that if the parents do not participate in the 
drug education programs, that they would be held liable, at 
least to some degree. They tried this in Los Angeles on gangs 
and lost a case where the mother had even had a cake with the 
gang symbols on it and she claimed she did not know that that 
was--she picked black and purple or something for the cake. I 
had a lady whose son had been involved in a gang tell me in 
Philadelphia that she was afraid that some of that would not 
work because a lot of those kids are very rebellious and their 
goal is to stick it to their parents. So if they knew the 
parents were going to be liable, they would make sure that the 
law enforcement officials knew it so their parents would be in 
trouble too.
    If you come up with or know of different things or have 
specific things, I think that is one of the most important 
things we need to look at. I do not know that we can legally do 
it but we have to get the parents directly involved because 
without the parental involvement, the schools are overwhelmed, 
law enforcement is overwhelmed and there needs to be more 
accountability on that side. I am certainly willing to look at 
those kinds of things, as are other members. It should be a 
State and local area, but as it overlaps across State lines, 
there may be things we can do in looking at that.
    Mr. Yarbrough. Mr. Chairman, as you well know, you find a 
great deal of education in this country and you set a great 
precedence and tone for what education will be like in this 
country, even though it is a State issue and even more so, a 
local issue. But the Federal Government has long used its 
financial ability to alter behavior at certain levels. And I 
believe that a commitment to a program from K through 12 for 
substance abuse education and for the parents to be voluntarily 
included and resource made available to teach the parents the 
same kinds of things taught the child so that they can assist 
the school and be assisted in working with their children in 
the drug abuse-related problems, and you can offset that with 
the kinds of State statutes which you can also influence, as 
you are well aware, through certain pass-through moneys, that 
would hold the parents somewhat responsible. And a parent's 
participation in this education process would be in the legal 
sense, a minimizer in their liability, for their child's 
conduct.
    You know, it is a sad set of circumstances and we see it 
many times in our local business where a single family mother 
is abused and beaten by her 14-year-old child. But that problem 
really did not start at 13. And there is nothing one can do if 
that is when the problem began and there had been good 
parenting and good care and good education prior to that. But 
then there is no liability on the parents' part, we are all 
responsible for our individual conduct at some point.
    Mr. Souder. I think we are kicking a lot of problems at the 
schools that started with fundamental problems in the 
individual and in families and in looking at how the schools 
can address this, certainly the hottest--this next statement is 
not going to be popular, but I want to get your reaction to 
it--in looking at how to address a lot of the drug issues, I 
think there has been so much pressure on law enforcement, 
saying why is the problem not going down, that almost 
uniformly, I do not care what agency it is, Federal, State, 
local, it is like well, we are going to solve this through 
education. Yet, interestingly, the only data we have on the few 
programs that are out there, and DARE is arguably, in my 
opinion, the best in the country, is not good. It is even worse 
than law enforcement data in the sense of whether it is getting 
its changes.
    In the kids that you see, I have a daughter who is a 
freshman, now is going to be a sophomore in college, a son who 
is a senior in high school as well as one in elementary school. 
My kids are pretty straight, I say that with the hope of many 
parents. But I get this feeling from their friends that for the 
most part, it is not a lack of knowledge in the kids about what 
the drugs are or even that cocaine or heroin may not be 
actually dangerous, but a lot of it is a feeling that a lot of 
this stuff is not that important, adults may smoke and drink, 
therefore what is the big deal with marijuana or 
methamphetamine. They start into that and they never intended 
to get involved in the other, but knowledge may not be the 
problem here.
    How do we get to the next step? We are winning the battle 
from kindergarten to sixth grade, not too many of those kids 
will say drugs are good. Somewhere in there, we are 
transferring at junior high and high school where in spite of 
the fact of saying it is good, we are seeing an increase in the 
number of students who say marijuana is not dangerous, we have 
seen increasing tolerance, dangerous trends even as adults have 
backed away from some of these hard drugs. How would you 
approach the education angle? I thought the parents was an 
interesting wrinkle and I thought also the registering of drug 
dealers much like we are in juvenile justice trying to have 
some of that even be in the record of some of these kids 
because the dealers are just using the kids. But have you 
thought much--and as you think of things too, if you can pass 
it through to Congressman Sessions and others--how would you 
approach the education differently than we have, given the fact 
that we have been trying to sound this drum beat when the kids 
become at risk?
    Mr. Yarbrough. I guess there are really two real quick 
pieces. And I am certainly not qualified to lay out an 
education program, that is not my expertise by any means. I 
think there are people who are very capable, I think we need to 
continue to press something that begins from K through 12 and 
we need to build piece upon piece in recognizing as peer 
pressures change in the 6th, 7th, 8th grade, as they change in 
the 10th and 11th grades, and as things change, that we have a 
program designed by people much smarter than I am, as to how to 
deal with that.
    We are not going to be 100 percent successful. Peer 
pressure at 13 is far more important than your ability. You 
know, you had your chance for the first 7, 6, 9, 10 years. 
After that, somebody else is beginning to take over a great 
deal in the behavior formation of our children.
    I just think if we commit to something that begins here and 
ends here through 12 years and we bring the parent into it, we 
now at least have the two pieces. You know, I--law enforcement, 
teaching drug abuse education is probably not the world's 
greatest idea. The new wrinkle at our local level now in the 
States is teaching aggressive behavior kinds of programs, to 
teach the children how to deal with aggressive behavior as 
opposed to getting a razor, a hatpin, a gun or something else 
and settling the problem.
    I just believe there are an awful lot of bright people, and 
you work with education people a great deal, that can design 
something. If we are not trying, we are certainly not going to 
succeed and I do not see us trying with a real comprehensive 
approach to it. And you know, there is not much results, it is 
12 years from now before we are going to know what the results 
are, and that is not always the best laid plan. I cannot 
support anything, you know, next election.
    Mr. Souder. Well, I thank you for your testimony. You have 
touched on one other area that you hit a raw nerve on and that 
is advertising, which to some degree is a spin off the media 
and I just want to say on behalf of our colleague, John Mica 
from Florida, this has been a pet peeve of ours. We have had in 
front of our subcommittee the Partnership of Drug Free America, 
which has absolutely brilliant ads devised by the best 
marketers in the country. If they would run it at sometime 
other than 4:30 a.m., it might be helpful in trying to reach 
people and quite frankly, if we do not see some response out of 
our national media, his bill will gain more momentum, which 
demands that the networks spend a certain amount of time in 
each given time period, in helping us with this, because there 
is no question that the entertainment issue--and this is a 
bipartisan effort where I congratulate the President and Vice 
President for helping keep the pressure on Hollywood--we had a 
hearing out there--the pressure in the music industry, because 
it is frightening what kind of garbage is going through and we 
can do a little classroom talk here or there or parents can try 
to reach the kids, but if they are playing on certain stations 
this kind of stuff, what industry even holds up sometimes--I 
got into an argument over with one song, Heroin Girl, which is 
supposed to be their model of an anti-drug song, but it 
certainly had a second message inside that. And it was a 
frustrating process if that's the best they can do to try to 
fight drugs.
    So we will continue to work at multiple levels and I want 
to congratulate you and the others who are fighting the battle 
here at home in every community because you are the front line 
of defense and, as you say, there are citizens afraid to come 
out of their homes, people afraid to go shopping, afraid to jog 
at night, kids afraid to go out on the playgrounds. It is very 
distressing to go into any urban city in this country and have 
every single child there be able to say they have heard 
gunshots in the last period of time. You cannot have equal 
opportunity and an equal chance in this country when there are 
people who are in those kinds of situations and it has 
penetrated everywhere.
    Mr. Sessions, do you have any closing comments?
    Mr. Sessions. Just as a closing comment, I would like to 
thank each of the people who have been here today. I will tell 
you that we have the most professional law enforcement that we 
assembled today. This was designed to get information, not only 
to Congressman Souder and myself, for us to take to Washington, 
but it also has been designed for the students who are here 
today.
    I would like to thank you. I would like to be a person who 
can stand up, and I am a person who can stand up and tell you 
that I have never ever, ever smoked at minimum a marijuana 
cigarette, I do not participate in illegal drug use and I will 
tell you that if anybody thinks that that is cool that you are 
involved in drug usage, you are making a mistake.
    Last, I want to thank the media who has taken time to be 
here today. They are an important part of this process, because 
they get the message out. This cannot be won or lost just by 
law enforcement or by Members of Congress or by even kids. It 
has to be a joint participation with people who write 
newspapers and who buy ink by the barrel and who have TV 
stations and airwaves.
    So I applaud them for being here today and I will tell you 
that I am extremely pleased, sir, to see the people who were 
here from the media who care, not just about the hot story, but 
care about our children.
    And last, sir, I want to thank you for taking time out of 
your schedule. I know it was a diversion for you, as Chairman 
Hastert was unable to be here, but thank you for taking time 
and I welcome any way we are able to work together in your 
leadership in this area.
    Mr. Souder. I want to thank all of you for making this 
hearing so successful. This is how we get information. For 
those of you who are watching, we do this around the country, 
we collect this. As a former committee staff director and 
staffer, I know how important it is that they absorb the 
information as we do different reports, and I also want to say 
that it is really great, I know this is not just a flattery 
statement, it is great to have Congressman Sessions in Congress 
because he is committed to law enforcement. This is not an 
election year. Too many people talk about drugs in an election 
year. The key thing is do you talk about it in a non-election 
year.
    It is great to be here, great to see people on the front 
lines and I commend all of you.
    This hearing of the Subcommittee on National Security, 
International Affairs, and Criminal Justice is adjourned.
    [Whereupon, at 1:19 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
